<html>
<title> - MISCELLANEOUS NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 109-361]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-361
 
                   MISCELLANEOUS NATIONAL PARKS BILLS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                           S. 1870                               S. 1913

                           S. 1970                               S.J. Res. 28

                           H.R. 318                              H.R. 562



                                     

                               __________

                           FEBRUARY 16, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-064                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
               LAMAR ALEXANDER, Tennessee, Vice Chairman

GEORGE ALLEN, Virginia               DANIEL K. AKAKA, Hawaii
RICHARD M. BURR, North Carolina      RON WYDEN, Oregon
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
                                     ROBERT MENENDEZ, New Jersey

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Brownback, Hon. Sam, U.S. Senator From Kansas....................     2
Coburn, Hon. Tom, U.S. Senator From Oklahoma.....................     4
Menendez, Hon. Robert, U.S. Senator From New Jersey..............     2
Parsons, John, Associate Regional Director for Lands, Resources 
  and Planning, National Capital Region, National Park Service, 
  Department of the Interior.....................................     5
Smith, Chadwick, Principal Chief, Cherokee Nation, Tahlequah, OK.    13
Thomas, Hon. Craig, U.S. Senator From Wyoming....................     1

                                APPENDIX

Additional material submitted for the record.....................    21


                   MISCELLANEOUS NATIONAL PARKS BILLS

                              ----------                              


                      THURSDAY, FEBRUARY 16, 2006

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:29 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. I think we will get started. It is kind of 
a busy day for everyone. This is the third hearing I have had 
and we will have another one shortly after this.
    We appreciate you being here and we will try and get 
through a number of things here. I think it is important that 
we have this hearing. So I want to welcome John Parsons from 
the National Park Service--glad to have you here--and Chief 
Chad Smith from the Cherokee Nation. Thank you.
    Our purpose today is to hear testimony on three Senate 
bills, one joint resolution, and two House bills: S. 1870, a 
bill to clarify the authorities for the use of certain national 
park properties within the Golden Gate National Recreation Area 
and the San Francisco Maritime National Historical Park, and 
for other purposes; S. 1913, a bill to authorize the Secretary 
of the Interior to lease a portion of the Dorothy Buell 
Memorial Visitor Center to be used as a visitor center for the 
Indiana Dunes National Lakeshore, and for other purposes; S. 
1970, a bill to amend the National Trails System Act to update 
the feasibility and suitability study originally prepared for 
the Trail of Tears National Historic Trail and to provide for 
the inclusion of new trail segments, land components, 
campgrounds associated with that trail, and for other purposes; 
S.J. Res. 28, a joint resolution approving the location of the 
commemorative work in the District of Columbia honoring former 
President Dwight D. Eisenhower; H.R. 318, a bill to authorize 
the Secretary of the Interior to study the suitability and 
feasibility of designating Castle Nugent Farms located in St. 
Croix, Virgin Islands, as a unit of the National Parks, and for 
other purposes; and H.R. 562, a bill to authorize the 
government of the Ukraine to establish a memorial on Federal 
land in the District of Columbia to honor the victims of the 
manmade famine that occurred in the Ukraine in 1932 and 1933.
    So these are the issues that we have before us. Let me say 
a word just in general about the development on the National 
Mall. The initial concept of the Mall was planned in the late 
1700's as the city of Washington was laid out. In 1901 Senator 
MacMillan responded to concerns of overdevelopment that 
resulted in the plan for the Mall as we know it today.
    In 2003 we passed legislation establishing a reserve area, 
limiting future construction on the Mall. Last month we heard 
about the site selection of the African American Museum in the 
reserve area near the Washington Monument and today we are 
considering a resolution to locate the Eisenhower Memorial in 
Area I. Both of these projects are important, no doubt. But I 
would like to reiterate that the National Mall is a complete 
work of civic art that needs to be carefully managed for the 
enjoyment of future generations.
    So I believe it is time we take another look at the Mall, 
as was done in 1901, and I will be introducing language soon to 
accomplish that. The National Mall has outgrown its britches 
and it will take more than a new belt and suspenders, I 
believe, to fix it.
    In any event, we thank the witnesses for being here today. 
We will move directly into that area. As I said, we have Mr. 
Parsons from the service and Mr. Smith from the Cherokee 
Nation.
    So, Mr. Parsons, if you would like to begin, sir.
    [The prepared statements of Senators Menendez, Brownback 
and Coburn follow:]

       Prepared Statement of Hon. Robert Menendez, U.S. Senator 
                      From New Jersey, on H.R. 562

    Mr. Chairman, I would like first to thank you for bringing this 
resolution, which establishes a memorial in the District of Columbia to 
honor the victims of the manmade famine that occurred in Ukraine in 
1932 and 1933, before the Subcommittee. I was a proud cosponsor of this 
resolution in the House, and I continue to support this resolution now 
in the Senate.
    With this resolution, we acknowledge the incredible loss and 
suffering by the Ukrainian people as a result of intentional policies 
implemented by the former Soviet Union. With this resolution, we 
remember that this brutal act against the people of Ukraine happened 
only 60 years ago.
    With this memorial we remember that the Soviet Union deliberately 
confiscated grain harvests and starved millions of Ukrainians in a 
policy of forced collectivization, to put down Ukrainian independence.
    We remember that millions of Ukrainian children were orphaned and 
left to starve by the Soviet Union, because Ukrainians fought for self-
determination and freedom of speech over oppression.
    And in 2004, Ukrainians again chose freedom. For the first time 
since independence in 1991, free and fair democratic elections were 
held in the Ukraine. Ukrainians seized the opportunity to strengthen 
their nation's rightful place in our community of world democracies, 
and today continue to fortify those values of freedom and democracy. 
And that spirit of democracy resounds strongly not just in the Ukraine, 
but in this country as well.

                                 ______
                                 
  Prepared Statement of Hon. Sam Brownback, U.S. Senator From Kansas, 
                            on S.J. Res. 28

    Thank you, Mr. Chairman and Members of the Subcommittee, for 
conducting this hearing today and providing me the opportunity to speak 
in support of a resolution that I sponsored with Senators Stevens, 
Inouye, Roberts and Reed. It is with great pleasure that I speak to you 
not only on behalf of this resolution, but on behalf of a great leader 
and fellow Kansan, President Dwight D. Eisenhower.
    Most people know Eisenhower as a courageous five-star general who 
served as the Supreme Commander of the Allied forces in Europe during 
World War II, led the D-day invasion in June 1944 and later was 
commander of NATO. Less often is Eisenhower recognized for his 
contributions as the 34th President of the United States. Under his 
Administration from 1953 to 1961, President Eisenhower was the driving 
force behind bringing statehood to Alaska and Hawaii, strengthening the 
Social Security system for 10 million more Americans, and bringing the 
St. Lawrence Seaway to completion. He was also instrumental in the 
creation of the interstate highway system, the largest public works 
program in U.S. history that created a 41,000-mile highway system. 
Eisenhower was also a strong proponent of civil rights. He pressed for 
passage of the first two Civil Rights Acts since Reconstruction and 
ordered the complete desegregation of the Armed Forces. Furthermore, he 
showed his commitment to this cause by sending troops into Little Rock, 
Arkansas, to assure compliance with the orders of a Federal court. He 
once wrote, ``There must be no second class citizens in this country.''
    Eisenhower believed America needed to be modernized in 
transportation, space and aviation. Drawing from his Kansas roots, he 
took our state motto, ``Ad Astra per Aspera,'' meaning to the stars 
through difficulties, literally by creating the Federal Aviation 
Administration and the National Aeronautics and Space Administration 
(NASA). Quite appropriately, the proposed memorial site would be steps 
away from the Federal Aviation Administration and the National Air and 
Space Museum, which houses many artifacts donated by NASA.
    President Eisenhower was one of the most dedicated public servants 
in American history. He is recognized for his role as a peacemaker, his 
diplomatic record and his faith in democracy. President Eisenhower's 
Administration saw the end of the Korean War, dealt with crises in 
Lebanon, Suez, Berlin and Hungary, established the basic national 
defense policies that kept our country safe during the Cold War, and 
prevented nuclear war. His commitment to democratic processes and 
international peace stand as his lasting legacy to the Nation.
    This extensive list of accomplishments would have caused most men 
to boast. Dwight D. Eisenhower was not most men; at his core, he was 
and would always remain true to his Kansas values. Born October 14, 
1890, Eisenhower was raised in Abilene, Kansas, the third of seven 
sons. Eisenhower was a great athlete, but his career came to an end 
after he injured his knee trying to tackle the legendary Jim Thorpe. 
With professional sports no longer a career option, Eisenhower found 
his place in the United States Army and performed his duties well. 
Although his administrative abilities had been noticed by the military, 
on the eve of the U.S. entry into World War II, he had never held an 
active command and was far from being considered a potential commander 
of a major operation. Eisenhower persisted, remained humble and hard-
working, and continued to perform to the best of his abilities. General 
George Marshall took notice and recognized his great organizational and 
administrative abilities. In a few short years, Eisenhower was 
appointed Supreme Commander of the Allied Forces in Europe and left his 
mark on history for all time.
    In his now famous speech that would have been delivered if the 
invasion of Normandy failed, Eisenhower took full responsibility and 
said that if any blame or fault is attached to the attempt at Normandy, 
it was his alone. He was offered the Medal of Honor for his leadership 
in the European Theater but refused it, saying that it should be 
reserved for bravery and valor. Eisenhower said, ``Humility must always 
be the portion of any man who receives acclaim earned in blood of his 
followers and sacrifices of his friends.'' It is the humility, bravery 
and sacrifice of this man that we wish to honor with a memorial.
    The United States Congress created the Dwight D. Eisenhower 
Memorial Commission to consider and formulate plans for a permanent 
memorial to Dwight D. Eisenhower, including its nature, construction 
and location. This Commission has worked tirelessly to research the 
most suitable memorial sites and, after months of consideration, voted 
in favor of a location across the street from the National Air and 
Space Museum at the intersection of Independence and Maryland Avenues, 
a site within the boundaries of Area 1. This resolution approves the 
Secretary of the Interior's recommendation that the Eisenhower Memorial 
be located within Area 1. This Area is reserved for commemorative works 
whose subjects are of ``pre-eminent historical and lasting significance 
to the Nation.'' President Eisenhower's life and legacy certainly had 
and will continue to have a lasting significance and deserve a memorial 
site to perpetuate his memory and his contributions to the United 
States.
    I am pleased to join with my colleagues and enthusiastically 
support this resolution before the Committee today. All over the United 
States and the world there are memorials that have been named in 
Eisenhower's remembrance. Schools, roads, bridges, buildings, hospitals 
and parks are named in his honor and organizations and programs have 
been created in his name. It is time that we honored him in our 
Nation's capital by creating a permanent memorial to acknowledge the 
lasting impression he left on this city, the state of Kansas, the 
United States and the world.
    We want to ensure that the distinguished legacy of Dwight D. 
Eisenhower lives on and serves as a stirring reminder of the sacrifices 
and triumphs that created this Nation--a nation united in our past and 
looking boldly towards our future.
    I again thank you for the opportunity to speak on behalf of this 
resolution and look forward to working with you in order to move this 
resolution through the Senate.

                                 ______
                                 
  Prepared Statement of Hon. Tom Coburn, U.S. Senator From Oklahoma, 
                               on S. 1970

    Chairman Thomas, Ranking Member Akaka, and distinguished members of 
this subcommittee, I want to thank you for holding this hearing today. 
I am particularly grateful that you will be considering S. 1970 a bill 
that I have introduced alongside Senators Frist and Alexander to amend 
the National Trails System Act to recognize newly discovered routes 
along the Trail of Tears.
    The Trail of Tears--the forced removal of Cherokees from the 
Southeastern United States to present day Oklahoma--was a dark and 
shameful moment in our history.
    Along the many routes used during this period of removal, lives 
were shattered and many lost, and entire families were destroyed 
forever. We can never forget that time, and it was this impetus that 
inspired the original Trail of Tears legislation in the 1980s.
    Over time, our ability for historical perspective has grown with 
the development of our country. Today we have better means to increase 
our knowledge and understanding about our past. There are new 
discoveries highlighting the realities of the Trail of Tears, and, 
since that original Act passed in 1987, our knowledge of the Trail has 
grown immensely. We now know that there were additional routes on the 
Trail, more than those originally designated by the federal government. 
The bill before the committee today includes the Benge and Bell routes; 
various water routes in Alabama, Arkansas, Oklahoma, and Tennessee; and 
several other routes now known to be a part of the original Trail. The 
goal, as you will hear from Chief Chad Smith of the Cherokee Nation 
today, is to make sure that the full picture of the Trail of Tears is 
known.
    When deciding to introduce this legislation, the seriousness of the 
matter weighed heavy on my heart. The Trail of Tears is forever linked 
to Oklahoma, my home. I believe the purpose of this bill is noble and 
true and it is a further step in reconciliation and healing in America. 
This bill will officially recognize more recent discoveries about the 
Trail of Tears that are long overdue and it will serve to honor the 
people who were forced West.
    In contemplating the intent of this bill, I also realized 
potentially serious implications and considerations that I wanted to 
ensure remained protected upon its enactment.
    I wanted to make sure that this bill will in no way restrict, 
impede or threaten private property rights on the lands pertaining to 
this designation. My sponsorship of the legislation was also contingent 
on the assurance that no new federal appropriations could be used 
toward these new designations. That is why I have incorporated into our 
bill a prohibition on new federal funding, and encouraged the 
development of private and non-profit support as well.
    With these assurances, I believe that passage of this legislation 
is the right thing to do.
    Therefore, I sponsor this legislation with profound reverence and 
sensitivity as I reflect on the reality of lives lost and the suffering 
endured by the Cherokee people on the Trail of Tears. We should 
approach this legislation and see it to fruition with a solemn respect 
and without political posturing for personal credit or gain. The new 
designations of routes of the Trail of Tears are important so that we 
as a people always remember the grave mistakes of our past, so that 
they may never be repeated.
    Before closing, I again want thank my cosponsors, Senators Frist 
and Alexander. In addition, I thank Chief Chad Smith of the Cherokee 
Nation for agreeing to be our lead witness this afternoon. Finally, I 
pay tribute to Representative Zach Wamp for his tireless efforts to see 
this legislation through the process. Without his leadership, this 
legislation would not be before this committee today.
    Again, I thank my colleagues for their consideration of S. 1970, 
and ask for your support.

         STATEMENT OF JOHN PARSONS, ASSOCIATE REGIONAL 
          DIRECTOR FOR LANDS, RESOURCES AND PLANNING, 
        NATIONAL CAPITAL REGION, NATIONAL PARK SERVICE, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Parsons. I am John Parsons, the Associate Regional 
Director of the National Capital Region of the National Park 
Service here in Washington, DC, and I thank you for the 
opportunity to appear before you to present the Department of 
the Interior's view on these measures that you have just 
outlined. With your permission, I will briefly summarize our 
prepared testimony and submit that material to you for the 
record.
    Senator Thomas. Thank you.
    Mr. Parsons. S.J. Res. 28 is a joint resolution approving 
the location of a commemorative work within the monumental core 
of the District of Columbia honoring former President Dwight D. 
Eisenhower. The Department strongly supports enactment of this 
measure and transmitted a similar proposal to Congress just 
this January, January 31. We are pleased to report that the 
National Capital Memorial Advisory Commission has met on this 
matter and unanimously concluded that Dwight Eisenhower made an 
extraordinary contribution in his lifetime of public service to 
this country and had a profound effect on all Americans, which 
will continue through history.
    Under the provisions of the Commemorative Works Act, of 
course, the location will be deemed disapproved unless Congress 
approves by law the location within 150 days, which would be 
July 2. So we urge timely and favorable action on this measure.
    The Department also supports enactment of S. 1870, which is 
based on an administration proposal that was submitted to 
Congress last year. This involves the Golden Gate National 
Recreation Area and the San Francisco Maritime National 
Historical Park. Both have had longstanding authority to spend 
revenue generated from certain properties for maintenance of 
park facilities.
    S. 1870 would enable the National Park Service to ensure 
that the revenue from those properties could be used for multi-
year rehabilitation and maintenance projects. It would also 
separate the property use and admission fee authorities for the 
parks and it would provide for a modest boundary adjustment 
between them.
    S. 1913 would authorize the Secretary of the Interior to 
lease a portion of the Dorothy Buell Memorial Visitor Center 
for use as a visitor center for the Indiana Dunes National 
Lakeshore. The Department transmitted a similar proposal to 
Congress last September and strongly supports enactment of this 
measure.
    The bill would authorize the Park Service to use federally 
appropriated funds to lease space in the Dorothy Buell Visitor 
Center, a new facility being built by the Porter County 
Convention, Recreation, and Visitor Commission outside the 
boundary of the lakeshore. This jointly operated facility will 
be located on the heavily used, heavily traveled route into the 
park. This concept was generated through a general management 
plan which concluded that we would better serve park visitors 
at this location.
    S. 1970 would amend the National Park System Act to update 
the feasibility and suitability study of the Trail of Tears 
National Historical Trail. The enabling legislation--enabling 
the examination of additional routes, land components, and 
campgrounds associated with the trail which were not included 
in the initial study done in the 1980's.
    S. 1970 would authorize the Secretary to make a 
determination if any of these additional routes, land 
components and campgrounds were eligible for inclusion in the 
Trail of Tears National Historical Trail and then to designate 
these as additions to the national historic trail.
    While we support updating the feasibility and suitability 
study of the Trail of Tears, we recommend that S. 1970 be 
amended to remove the language providing that a studied route 
shall automatically be designated as an addition to the 
original trail upon the study's determination that the route is 
eligible for inclusion in the original trail. That is, we would 
return to Congress with the study and Congress then would 
authorize its designation rather than the Secretary.
    H.R. 562 would authorize the government of the Ukraine to 
establish a memorial on Federal land in the District of 
Columbia to honor the victims of the manmade famine that 
occurred in the Ukraine in 1932 and 1933. The Department 
opposes enactment of this measure because in our judgment it 
duplicates efforts currently under way to establish a memorial 
that would honor all victims of communism worldwide. This 
memorial, the Victims of Communism Memorial, was authorized by 
Congress in 1993. The Victims of Communism Memorial Foundation 
is proposing a memorial to the victims of communism worldwide 
that will be supplemented by a virtual museum to tell the 
history of the impact of the communism.
    Because the Victims of Communism Memorial will encompass 
the history of the Ukraine famine as well as that of 120 
nationalities, ethnic groups and countries that were also 
victims of communism, we feel that a separate specific 
recognition of this or other national or ethnic groups should 
not be authorized. We believe that creating separate memorials 
for individual groups would detract from the overall message of 
the Victims of Communism Memorial and could potentially create 
an unfortunate competition amongst various groups for limited 
sites in the Nation's capital.
    H.R. 318 would authorize the Secretary of the Interior to 
study the suitability and feasibility of designating Castle 
Nugent Farms, located on St. Croix in the Virgin Islands, as a 
unit of the National Park System. The Department does not 
oppose H.R. 318, if amended to allow the study to evaluate all 
alternatives for preservation and interpretation, including 
what role, if any, might be just played by the National Park 
Service or other partners.
    We recommend that H.R. 318 be amended to specify that the 
study should explore all options. This study would determine if 
the resources present at Castle Nugent Farm are nationally 
significant, if the site would be suitable and feasible to 
National Park System, whether direct NPS management or 
alternative protection by other agencies or the private sector 
is appropriate for the site, and what management alternative 
would be most effective and efficient in protecting the 
resources and allowing for public enjoyment. We feel a modest 
amendment will accomplish this and we have attached that to our 
testimony.
    That concludes my testimony here today. I would be glad to 
answer any questions you may have.
    [The prepared statements of Mr. Parsons follow:]

  Prepared Statement of John Parsons, Associate Regional Director For 
 Lands, Resources And Planning, National Capital Region, National Park 
                  Service, Department Of The Interior

                            ON S.J. RES. 28

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S.J. Res. 28, a joint resolution approving the 
location of the commemorative work in the District of Columbia honoring 
former President Dwight D. Eisenhower. The Department strongly supports 
enactment of S.J. Res. 28. The Administration transmitted a similar 
proposal to Congress on January 31, 2006.
    This joint resolution would approve the location of a proposed 
memorial to Dwight D. Eisenhower in Area I of the District of Columbia 
and its environs. Legislation authorizing the Dwight D. Eisenhower 
Memorial Commission to establish this memorial on Federal lands in the 
District of Columbia or its environs was signed into law on January 10, 
2002.
    The Commemorative Works Act governs the establishment of memorials. 
It sets forth strict requirements for locating a memorial in the 
central monumental core of the Capital City, which is designated as 
``Area I.'' After seeking the advice of the National Capital Memorial 
Advisory Commission, the Secretary of the Interior determines that the 
subject of the memorial is of preeminent historical and lasting 
significance to the Nation. The Secretary must then notify Congress of 
the determination that the memorial should be located in Area I. The 
location of the commemorative work in Area I is authorized only if the 
recommendation is approved by law within 150 calendar days after the 
Secretary's notification is received by Congress.
    Dwight D. Eisenhower served with distinction in the United States 
Army as Supreme Allied Commander of the Army in Europe, Commander of 
Allied Forces landing in North Africa, the General of the Army, and as 
Commander of NATO forces. General Eisenhower left military service to 
become the 34th President of the United States in 1952. Among President 
Eisenhower's accomplishments were the establishment of the interstate 
highway system and the completion of the St. Lawrence Seaway. He also 
established the Federal Aeronautics Administration, and his interest in 
space led to the creation of the National Aeronautics and Space 
Administration. He established the United States Information Agency and 
made the Voice of America a principal component of that agency. His 
strong belief in education and his social and economic advantages led 
to the creation of the Department of Health, Education, and Welfare the 
predecessor agency to today's Departments of Education and Health and 
Human Services.
    Mr. Chairman, the National Capital Memorial Commission met on March 
1, 2002, to consider the appropriateness of placing this memorial on a 
site within Area I, and unanimously endorsed this proposal to the 
Secretary. The Secretary has recommended authorization of a location in 
Area I. However, under the Commemorative Works Act, the location will 
be deemed authorized only if the recommendation is approved within150 
days of February 2, or by July 2, 2006. We, therefore, urge timely and 
favorable action on S.J. Res. 28.
    That concludes my prepared testimony and I would be happy to answer 
any questions you may have.

                               ON S. 1870

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
1870, a bill to clarify the authorities for the use of certain National 
Park Service properties within Golden Gate National Recreation Area and 
San Francisco Maritime National Historical Park.
    The Department supports enactment of S. 1870, which is based on an 
Administration proposal that was submitted to Congress last year. 
Golden Gate National Recreation Area (NRA) and San Francisco Maritime 
National Historical Park (NHP) both have had longstanding authority to 
spend revenue generated from certain properties for the maintenance of 
park property. S. 1870 would enable the National Park Service to more 
effectively manage these properties by ensuring that the revenue from 
those properties could be used for multi-year rehabilitation and 
maintenance projects. This legislation also would separate intermingled 
authorities of the two parks and, therefore, ensure that each park has 
its own property-use and admission-fee authorities. In addition, S. 
1870 would provide for a modest boundary adjustment between them.
    Since 1978, Golden Gate NRA has had authority to retain the revenue 
from the use of the Haslett Warehouse, the Cliff House properties and 
Louis' Restaurant, which the National Park Service owns. Under this 
authority, the park may use the revenues for certain infrastructure 
expenses, ``provided that surplus funds, if any, will be deposited into 
the Treasury of the United States.'' This provision has been 
interpreted to mean that funds that are not spent within the fiscal 
year in which they are collected cannot be spent by the park. Without 
the ability to retain revenues over a longer period of time, the park 
cannot use the funds for projects that cost more than the park receives 
in one year. This legislative proposal would allow revenue to remain 
available until expended, giving the park the authority to enter into 
longer-term rehabilitation and maintenance contracts.
    The property-use authority granted to Golden Gate NRA was extended 
to San Francisco Maritime NHP when that park was established in 1988 as 
a separate unit from property within Golden Gate NRA. However, the 
authority for revenue use was provided by a reference to the Golden 
Gate NRA law. Instead of relying on this reference, S. 1870 would 
explicitly include in the law that established the maritime park, the 
authority for administering contracts for, and revenues received from, 
the use of the Haslett Warehouse and other San Francisco Maritime NHP 
properties. San Francisco Maritime NHP, like Golden Gate NRA, would 
have the ability to retain the revenue beyond the current fiscal year, 
allowing the park to enter into multi-year contracts for the 
rehabilitation and maintenance of its historic ships and other assets.
    Revenue generated from the use of properties at both parks would be 
available for use as in current law--for administration, maintenance, 
repair, and related expenses of the properties under a management 
contract or lease. Thus, the revenues generated by these properties 
would be used to reduce the deferred maintenance backlog at the parks, 
rather than for broader park purposes.
    In addition, S. 1870 would transfer the authority for retaining 
revenue from admission fees to the ships owned by San Francisco 
Maritime NHP from the law governing Golden Gate NRA to the law 
governing San Francisco Maritime NHP. And, it would adjust the boundary 
between the two parks by moving San Francisco's Municipal Pier from 
Golden Gate NRA to San Francisco Maritime NHP. The maritime park 
already administers Municipal Pier by direction of the Regional 
Director of the Pacific West Region; this provision would simply 
conform the two parks' boundaries to the existing administrative 
arrangement. This boundary adjustment, along with the division of 
legislative authority for administering leased properties and admission 
fees, would complete the separation of the two park units that began 
with the formal establishment of San Francisco Maritime National 
Historical Park in 1988.
    There are no additional costs to the National Park Service 
associated with S. 1870.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions you or other members of the subcommittee may have.

                               ON S. 1913

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 1913, a bill to authorize the Secretary of the 
Interior to lease a portion of the Dorothy Buell Memorial Visitor 
Center for use as a visitor center for the Indiana Dunes National 
Lakeshore. The Department strongly supports enactment of S. 1913. The 
Administration transmitted a similar proposal to Congress on September 
30, 2005.
    S. 1913 would authorize the National Park Service (NPS) to use 
federally appropriated funds to lease space in the Dorothy Buell 
Memorial Visitor Center, a new visitor facility being built by the 
Porter County Convention, Recreation and Visitor Commission (PCCRVC) 
outside the boundary of Indiana Dunes National Lakeshore (national 
lakeshore). It would also authorize the Secretary of the Interior to 
enter into a Memorandum of Understanding with the Porter County 
Convention, Recreation and Visitor Commission prior to entering into a 
lease agreement. The Memorandum of Understanding would outline the 
terms of the joint partnership, including cooperative management of the 
new visitor facility and sharing of operational activities.
    The new Dorothy Buell Memorial Visitor Center is located 
approximately three quarters of a mile south of the national lakeshore 
boundary on IN 49, the principal north/south artery into the national 
lakeshore. It will be owned by the PCCRVC and space will be leased to 
the national lakeshore. The two parties will jointly plan and staff the 
new visitor center and offer ``one-stop shopping'' for the visitor with 
exhibits and theater space to educate them about the resources found in 
the park, aspects of threatened and endangered species management, 
habitat preservation, and wetlands restoration.
    In 1998, the national lakeshore and the PCCRVC began to explore the 
concept of a joint visitor center to be shared by the PCCRVC, the 
national lakeshore, and the Indiana Dunes State Park. Both the national 
lakeshore and the PCCRVC suffer from low visitation at their respective 
visitor centers due to their poor locations away from the primary 
thoroughfares. Only about 66,000 visitors to the national lakeshore, 
just 3 percent of the park's 2 million visitors, travel to the existing 
visitor center each year. Because of the existing visitor center's 
inconvenient location, size, and layout, the national lakeshore's 
General Management Plan recommended relocating the existing visitor 
center to the more heavily traveled IN 49 corridor. The old visitor 
center would then be used exclusively for school programs, which the 
national lakeshore currently hosts for over 50,000 students per year.
    A partnership to acquire land for a new site was initiated. A more 
prominent location outside the national lakeshore but within the 
primary travel corridor to the dunes was selected. Using a series of 
Transportation Enhancement grants, the PCCRVC purchased the land and 
secured a contract for construction. The site for the new facility will 
be the cornerstone of a small commercial center.
    A transportation study indicated that the new visitor facility 
would increase revenue to the area by $24 million and visitor center 
visitation by over 300 percent. Commercial tour bus operators would be 
advised of the new visitor center and could include it as the first 
stop on their way into the national lakeshore or state park for 
information and orientation to the area. Local schools also would be 
directed to the new visitor facility to begin their educational trips 
to the national lakeshore. Visitor contact facilities and waysides 
within both the national lakeshore and the state park would provide 
information regarding the new visitor facility and list its location.
    S. 1913 would provide authority to Indiana Dunes National Lakeshore 
to expend federally appropriated funds outside the boundaries of the 
park in order to lease space for exhibits, offices, a book store, and a 
theatre from PCCRVC. It would also authorize the expenditure of funds 
for the planning, design and development of exhibits to be placed in 
the new facility in the NPS-leased space and provide NPS staff for 
visitor information and education.
    Passage of S. 1913 would have minimal impact on the park's current 
budget. The space that would be leased by the NPS includes room for 
exhibits, offices, a theatre, and a bookstore that would be operated by 
the national lakeshore's cooperating association. Park staff would be 
relocated to the new visitor facility to provide education and 
information, so no additional FTEs are required or expected as a result 
of this proposal. The national lakeshore will continue to participate 
in the development of the new visitor facility's design plans, 
providing input for enhancing visitor flow and sustainability and 
offering technical advice on issues such as native landscaping.
    A one-time cost of approximately $1,200,000 would be needed to 
design, construct, and install exhibits in space leased for the 
national lakeshore. The NPS would include the project in the next 
update of its five-year construction plan. Annual lease payments would 
be approximately $70,000. This cost increase would be offset within the 
park's base budget with a reduction in lower priorities, so no 
additional operational funding would be requested or expected.
    Two million visitors travel to Indiana Dunes National Lakeshore 
each year. Many of them are from the Chicago metropolitan area and are 
often unaware that the national lakeshore is a unit of the National 
Park System. By relocating the primary visitor contact point to a more 
prominent location, the park would have the opportunity to contact and 
educate four times as many visitors regarding the national lakeshore's 
programs and resources as well as helping them understand the mission 
of the National Park Service.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.

                               ON S. 1970

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 1970. The bill would amend the National Trails 
System Act to update the feasibility and suitability study of the Trail 
of Tears National Historic Trail (NHT).
    We thank Senators Tom Coburn, Bill Frist, and Lamar Alexander for 
their interest in and support of the commemoration of the Trail of 
Tears NHT. The Department supports updating the feasibility and 
suitability study for the Trail of Tears NHT; however, we recommend 
that S. 1970 be amended to remove the automatic designation of any 
additions to the original trail the study determines to be eligible. In 
a time of austere budgets and a refocusing on the core mission of the 
National Park Service (NPS), we believe that available funding should 
be first directed toward taking care of what we already own.
    S. 1970 would update the feasibility and suitability study for the 
Trail of Tears NHT through the examination of additional routes, land 
components, and campgrounds associated with that trail not included in 
the initial study. The Secretary of the Interior would determine if 
some or all of these components are eligible additions to the trail at 
the completion of the study. Further, it would authorize the Secretary 
to make designations of any of these additional routes, land components 
and campgrounds that she found eligible. The National Trails System Act 
does not provide for additions to trails subsequent to their 
designation by Congress.
    A network of 24 scenic and historic trails has been created since 
the enactment of the National Trails System Act in 1968. These trails 
provide for outdoor recreation needs, providing enjoyment and 
appreciation, which in turn, promotes good health and well-being. They 
traverse resources that connect us to history and provide an important 
opportunity for local communities to become involved in a national 
effort by encouraging public access and citizen involvement.
    In 1987, Congress designated the Trail of Tears National Historic 
Trail. The trail encompassed the primary water route and northern land 
route used during the forced removal of the Cherokee Nation from its 
homelands in the southeast to Indian Territory (present day Oklahoma). 
The trail is administered by the NPS.
    The Indian Removal Act of 1830 mandated the removal of all Indian 
tribes from east of the Mississippi River to lands west of Arkansas and 
Missouri. Of the Five Civilized Tribes, the Cherokee were perhaps the 
most successful at resisting the Act's implementation. But their fate 
was sealed in 1838 when the U.S. government was determined to complete 
the Removal. The roundup began in May, as thousands of Cherokee 
families were brought by force to nearby military forts or camps, and 
subsequently marched to the principal emigration depots at Ross's 
Landing or Fort Cass in Tennessee, or Fort Payne in Alabama. From 
there, they either walked overland or rode river steamboats, flatboats, 
and keelboats to Indian Territory. By the spring of 1839, nearly the 
entire Cherokee Nation, comprising some 16,000 individuals from all 
levels of society, had been removed west.
    The 1992 Comprehensive Management and Use Plan for the Trail of 
Tears NHT identified the need to study two additional major routes of 
Cherokee Removal, the Bell and Benge Routes in the states of Tennessee, 
Alabama, Missouri, Arkansas, and Oklahoma as possible additions to the 
existing trail. Both of these routes are included in S. 1970. 
Subsequently, the Cherokee Nation, the Eastern Band of Cherokee 
Indians, the Trail of Tears Association, and other trail supporters 
have urged the NPS to include additional important routes of Cherokee 
Removal in Georgia, North Carolina, Alabama, Tennessee, and Oklahoma. 
These routes lead from the many removal forts established by the 
military during the roundup of the Cherokee to the major embarkation 
sites from which the Cherokee people left on their tragic journey to 
Indian Territory. The roundup of the Cherokee is a major part of the 
story of the Trail of Tears, and it is not adequately represented by 
the current trail.
    The Department recognizes the importance of telling the complete 
story of the Trail of Tears. Updating the feasibility and suitability 
study would cost approximately $175,000. Also, the NPS estimates that 
it would require an additional $295,000 per year to adequately provide 
funding for staff, travel, supplies, and other costs to administer the 
new routes.
    Historic trails cross public and private lands, and the intent of 
the National Trails System Act is one of respecting private property 
rights. In so doing, the development of strong partnerships is critical 
to administering and managing the historic trails and achieving 
preservation of trail resources and interpretation of the trail to the 
public. The Trail of Tears NHT demonstrates the results of this type of 
effort.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.

                              ON H.R. 562

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on H.R. 562, a bill to authorize the Government of 
Ukraine to establish a memorial on Federal land in the District of 
Columbia to honor the victims of the man-made famine that occurred in 
Ukraine in 1932-1933.
    The Department opposes enactment of this legislation because it 
duplicates efforts currently underway to establish a memorial that 
would honor all victims of communism worldwide. This memorial, the 
Victims of Communism Memorial, was authorized by P.L. 103-199 on 
December 17, 1993.
    H.R. 562 would authorize the Government of Ukraine to establish a 
memorial on Federal land in the District of Columbia to honor the men, 
women, and children who perished by famine under communist rule in 
Ukraine from 1932-1933. The bill would require that the establishment 
of the memorial comply with the major provisions of the Commemorative 
Works Act, but contains minor exceptions to four provisions. Two 
provisions require a commemorative work to have significance to the 
American Experience, and two relate to the requirement that the 
Secretary maintain and preserve the memorial. As a memorial gift from a 
foreign nation, the Government of Ukraine would be responsible for 
establishing, constructing, maintaining and preserving the memorial.
    The people of Ukraine were brought to the verge of physical 
extinction in 1932-1933 when a man-made disaster resulted in the deaths 
of millions of innocent men, women, and children. The Soviet 
Government, under the political control of Joseph Stalin, used food as 
a weapon to annihilate or suppress the political and cultural identity 
of the Ukrainian people. To fill impossibly high grain quotas, assigned 
brigades seized the 1932 crop from one of the world's most fertile 
farmlands. Those who resisted giving up their crops were killed. 
Millions of people starved while stockpiles of seized grain rotted by 
the tons. Attempts were made by the United States Government to 
intercede at the height of the famine to provide food and other 
necessary supplies to help the starving people of Ukraine. In 1988, the 
United States Commission on the Ukraine Famine reported that the people 
of Ukraine were victims of genocide, or ``starved to death in a man-
made famine.''
    The National Capital Memorial Advisory Commission (Commission), 
established in 1986 to review proposals to establish memorials and 
provide its recommendation to the Secretary of the Interior and 
committees of Congress, reviewed this proposal on March 15, 2005. While 
it supported a similar proposal in the 108th Congress, the Commission 
has since considered revisions made by the Victims of Communism 
Memorial Foundation (Foundation) to expand its effort as a two-fold 
commemoration. The Foundation is proposing a memorial to victims of 
communism worldwide that would be supplemented by a virtual museum to 
tell the history of the impact of communism. The Commission also 
concluded that because the Victims of Communism Memorial would 
encompass the history of the Ukraine Famine as well as that of 120 
different nationalities, ethnic groups, and countries that were also 
victims of communism, it would not endorse legislation proposed to 
provide a separate, specific recognition of this or other national or 
ethnic groups that already would be recognized in the Victims of 
Communism Memorial.
    We agree with the approach of commemorating the millions of victims 
of communism worldwide, including those who suffered immeasurably 
during the horrific Ukraine Famine, through the Victims of Communism 
Memorial. While the victims of the Ukraine Famine obviously deserve 
recognition, we believe that creating separate memorials for individual 
groups would detract from the overall message of the Victims of 
Communism Memorial and could, potentially, create an unfortunate 
competition amongst various groups for limited memorial sites in our 
Nation's Capital. The Foundation envisions the Victims of Communism 
Memorial as a visible symbol for all those who have suffered atrocities 
to human rights and perished. The Foundation secured site approvals for 
placement of the Victims of Communism Memorial within sight of the 
United States Capitol and design approvals in 2005. The Foundation 
plans to begin construction on the memorial this spring.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.

                              ON H.R. 318

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 318, a bill to authorize the 
Secretary of the Interior (Secretary) to study the suitability and 
feasibility of designating Castle Nugent Farms on St. Croix, Virgin 
Islands, as a unit of the National Park System.
    The Department does not oppose H.R. 318, if amended as described in 
this testimony. This study would provide an opportunity to determine 
the appropriate way to preserve and interpret resources associated with 
the plantation period in the Virgin Islands. The National Park Service 
(NPS) currently manages three units on the island of St. Croix--
Christiansted National Historic Site, Buck Island Reef National 
Monument, and Salt River Bay National Historical Park and Ecological 
Preserve. In a time of tight budgets and a refocusing on the core 
mission of the National Park Service (NPS), we believe that funding 
should be directed first toward completing the 25 previously authorized 
studies.
    In light of the President's commitment to devote more resources to 
maintaining existing units of the National Park System, we have made an 
effort to curtail taking on new responsibilities. For this reason, we 
believe any study should evaluate all alternatives for preservation and 
interpretation, including what role, if any, might best be played by 
the NPS or other partners. We recommend that H.R. 318 be amended to 
specify that the study explore all options. Our proposed amendment is 
attached to this testimony.
    The NPS is in various stages of progress on 25 studies previously 
authorized by Congress, 17 of which are being funded through the 
special resource study budget. We transmitted three studies in FY 2005, 
and there are seven studies in the transmittal process. Our highest 
priority is to complete these pending studies, though we expect to 
start newly authorized studies as soon as funds are made available. We 
estimate that the costs of completing this study will be approximately 
$250,000 to $350,000.
    H.R. 318 would direct the Secretary to carry out a study of the 
Castle Nugent Farms, which consists of approximately 1,400-acres 
located on the arid southeastern shore of St. Croix. The property is 
believed to be the largest parcel of privately held land in the U.S. 
Virgin Islands.
    The farm's rolling terrain consists of a mixture of dry forest, 
native vegetation, and rangeland that slopes down from an elevation of 
750 feet to the sea, fronting on a coastline that includes cobble 
beaches. One of the largest and healthiest fringing coral reef systems 
in the Virgin Islands extends only a few hundred feet offshore. The 
property also provides nesting areas for sea turtles, blackcrowned 
night herons, and a host of other migrating and resident birds.
    Castle Nugent Farms has a long and diverse history of farming 
dating back to the 1730's when the property was first established as a 
cotton and sugar plantation after the Danish West Indies Company 
purchased St. Croix from France. For many years, sugar cane, indigo, 
and cotton were the main crops.
    After Emancipation in 1848, the plantation began breeding N'Dama 
cattle, which had earlier been brought to St. Croix from Africa. This 
breed was a prominent part of the farm's operations until the 1960s 
when attention shifted towards raising an N'Dama cross breed of cattle 
known as Senepol. Introduced to Castle Nugent Farms in 1957 the Senepol 
breed has been able to flourish due to its tolerance to tropical, dry 
climates and its ability to survive in near-desert conditions, thus 
making the cattle an ideal match for St. Croix' climate. Today, the 
farm is well-known for its production of high quality Senepol beef, 
which is both consumed locally and exported to world markets.
    Castle Nugent Farms contains a cluster of buildings from the 
colonial plantation era including a great house that dates from the 
plantation's establishment, a converted chapel, the remains of a sugar 
mill, slave quarters, and a converted cotton storage shed. The 
buildings are situated in close proximity to each other on a hill with 
views towards the Caribbean Sea. The current owner lives on-site and 
also operates the buildings and grounds as a bed and breakfast. 
According to the owner, other cultural resources on the grounds include 
recent discoveries of pottery shards and other artifacts left over from 
either slave shanties or Arawak Indian campsites.
    If authorized by Congress, and if funds are made available, a study 
would be able to determine if the resources present at Castle Nugent 
Farms are nationally significant, if the site would be a suitable and 
feasible addition to the National Park System, whether direct NPS 
management or alternative protection by other public agencies or the 
private sector is appropriate for the site, and what management 
alternative would be most effective and efficient in protecting the 
resources and allowing for public enjoyment of the site.
    That concludes my testimony. I would be happy to answer any 
questions you or other members of the subcommittee may have.
Proposed Amendment--H.R. 318, Castle Nugent Farms Study
    Insert a new subsection (c) as follows and redesignate the existing 
subsection (c) as subsection (d).
    ``(c) MANAGEMENT ALTERNATIVES.--In completing the study authorized 
in subsection (b), the Secretary shall examine whether the National 
Park Service, the territorial government, or other public or private 
groups will be the most appropriate entity to provide for the 
management and preservation of Castle Nugent Farms.''

    Senator Thomas. Thank you.
    I think maybe, Mr. Smith, we will go ahead and have your 
testimony and then we will have some questions.

STATEMENT OF CHADWICK SMITH, PRINCIPAL CHIEF, CHEROKEE NATION, 
                         TAHLEQUAH, OK

    Mr. Smith. Thank you very much.
    In 1838 one of the darkest chapters of American history was 
written. This event was the forced removal of 16,000 Cherokees, 
pursuant to the Treaty of New Echota of 1835, which was 
fraudulent on its face, violated a U.S. Supreme Court decision 
in Worcester v. Georgia in 1832, and undermined the 
constitutional government of the Cherokee Nation. This episode 
in American history will be forever remembered as the Cherokee 
Trail of Tears.
    The Cherokee people were forced from their homes in Georgia 
and Tennessee and made to walk to Indian Territory 800 miles 
away in the dead of winter. The most vulnerable, those elderly, 
frail and young, were the first to perish. More than 4,000 
died.
    Seventeen thousand Cherokees wanted to stay in the land 
where their ancestors were buried, preserve their national 
character, and maintain their communities and way of life. They 
signed their names in the Cherokee language on a petition to be 
presented to Congress protesting the Senate's ratification by 
one vote of the Treaty of New Echota. The cruel irony is best 
evidenced by John Ross, Principal Chief, describing in an 1838 
letter to his brother Lewis Ross the effort to present this 
petition.
    He wrote: ``Dear Brother: . . . Our friend in the Senate 
has thus long deferred the presentation of our memorial . . . 
in reference to the Execution of the spurious ``treaty'' [of 
1835] . . . On Saturday last, the 24th, instituted a duel with 
rifles, was fought between Mr. [William] Graves of Kentucky and 
Mr. [Jonathan] Cilly of Maine, both of the House of 
Representatives in Congress. On the third fire, the latter fell 
and expired. Upon the meeting of the Congress this morning and 
the annunciation of the death of Mr. Cilly, both Houses 
adjourned, the funeral [taking] place tomorrow--and perhaps 
nothing will be done, until the next day when it is supposed a 
motion will be made by Mr. [John Quincy] Adams to expel all the 
members of the House who were in any way engaged in this 
tragical affair. Should this motion be made, it will 
unquestionably produce much excitement among the members, and 
perhaps lead to further acts of hostility, if not to the use of 
powder and ball, to blows in some other way--if so, let them go 
according to their own sense of honor through the scientific 
refinements of civilized life.''
    As a result of the ``civilized'' action of those members, 
the delivery of this protest was delayed.
    I have filed for the record a copy of the protest written 
in the Cherokee language for demonstration; this is but one 
small portion. It was created in a scroll that laid out 17,000 
names of Cherokees protesting their removal from their 
homelands.
    The causes for removal were simple. At first, in 1827 the 
Cherokees had the audacity to create a constitutional 
government, formed in response to instructions by Thomas 
Jefferson given in 1803 to create a regular set of laws. 
Second, gold was found in Dahlonegah, Georgia, in 1829.
    One of the public arguments to disguise this great national 
sin of fraud and forced removal was that the Indians could move 
to Indian Territory, where the game was plentiful and the water 
pure. It would be a place where the Cherokees could live, never 
to be disturbed again or have State or Federal governments 
thrust over them. Of course, the Cherokees asked the most 
obvious question: If Indian Territory was so nice, why did the 
white people not move there and leave the Cherokees in their 
ancestral homeland, as guaranteed by the United States in 23 
treaties? In fact, David Crockett, a Congressman from 
Tennessee, introduced a bill which provided to move the 
Tennesseans to Indian Territory and advised the Georgians to 
move to Tennessee.
    Why is S. 1970, this bill recognizing the Trail of Tears 
expansion, so important? There are three reasons. The U.S. 
Government must not repeat the mistakes it made in the past. It 
must honor its word and remember the inspiring story of the 
Cherokee spirit. At stake is the integrity of the United States 
and its word. Supreme Court Justice Hugo Black once said: 
``Great nations, like great men, should keep their word.'' The 
value of this Trail of Tears designation is that it will remind 
us of our obligations and duties and of the potentials and 
opportunities in the covenants of those treaties.
    The Trail of Tears reminds us of our first lesson of 
history: The greed of individuals and the power of the U.S. 
Government should never be used as instruments to defraud and 
rob a people of their homeland and government. Our second 
history lesson is that legal treaties of the past are still 
binding, both on the United States and the Cherokee Nation, 
even though they are not honored or acknowledged at times, and 
they still are the supreme law of the land.
    Our third history lesson is that, in contrast to the 
horrific episode that is the Trail of Tears, the Cherokee 
Nation and its people have continuously demonstrated our great 
legacy. The Cherokee Nation and its people know that this 
legacy is that we face adversity, survive, adapt, prosper, and 
excel. We continued our legacy in Indian Territory by building 
a sophisticated government and society through institutions of 
higher education, obedience to the law, and cohesive cultural 
communities. These lessons should never be forgotten, lest the 
mistakes of the past be repeated.
    Since the Trail of Tears, we have faced a number of other 
challenges to the Cherokee Nation. I can tell you, with the 
spirit of our ancestors and the conviction of our people, our 
government, and our history, we will be here for centuries to 
come to pass on this legacy.
    Thank you for the opportunity to attend. We support S. 
1970.
    [The prepared statement of Mr. Smith follows:]

Prepared Statement of Chadwick Smith, Principal Chief, Cherokee Nation, 
                             Tahlequah, OK

    In 1838, one of the darkest chapters of American history was 
written. This event was the forced removal of 16,000 Cherokees pursuant 
to the Treaty of New Echota of 1835, which was fraudulent on its face, 
violated a U.S. Supreme Court decision (Worcester v. Georgia, 1832), 
and undermined the constitutional government of the Cherokee Nation. 
This episode in American history will forever be remembered as the 
Cherokee Nation's Trail of Tears.
    Cherokee people were forced from their homes in Georgia and 
Tennessee and made to walk to Indian Territory, 800 miles away, in the 
dead of winter. The most vulnerable, those elderly, frail and young, 
were the first to perish. More than 4,000 died.
    Seventeen thousand Cherokees wanted to stay in the land where their 
ancestors were buried, to preserve their national character and to 
maintain their communities and way of life. They signed their names in 
the Cherokee language on a petition to be presented to Congress 
protesting the Senate's ratification--by one vote--of the Treaty of New 
Echota. The cruel irony is best evidenced by John Ross, Principal 
Chief, describing in an 1838 letter to his brother, Lewis Ross, the 
effort to present this petition:

                              ``Washington City February 26th, 1838
          Dear Brother . . . Our friend in the Senate has thus long 
        defered the presentation of our Memorial . . . in reference to 
        the Execution of the spurious ``treaty'' ]1835] . . . On 
        Saturday last the 24ed inst. a duel with rifles was fought 
        between Mr. [William J] Graves of Ky. and Mr. [Jonathan] Cilly 
        [Cilley] of Maine both of the House of Repves. in Congress. On 
        the 3'd fire the latter fell and expired. Upon the meeting of 
        Congress this morning and the annunciation of the death of Mr. 
        Cilly, both Houses adjourned, the funeral will take place on 
        tomorrow--and perhaps nothing more will be done, until the next 
        day when it is supposed a motion will be made by Mr. [John 
        Qunicy] Adams to expel all the members of the House who were in 
        any way engaged in the tragical affair. Should this motion be 
        made it will unquestionably produce much excitement among the 
        members, and perhaps lead to further acts of hostility, if not 
        to the use of powder and ball, to blows in some other way--if 
        so, let them go according to their own sense of honor through 
        the scientific refinements of civilized life.''

    As a result of the ``civilized'' action of those members, this 
delivery of this protest was delayed.
    I present to you a copy of the 1836 memorial of 17,000 Cherokees 
protesting the Treaty of New Echota which resulted in the Trail of 
Tears.
    The causes for removal were simple. First, in 1827, the Cherokees 
had the audacity to create a constitutional government, formed in 
response to instructions Thomas Jefferson gave in 1803 to create a 
regular set of laws. Second, gold was discovered at Dahlonegah, 
Georgia, in 1829.
    One of the public arguments used to disguise these great national 
sins of fraud and forced removal was that the Indians could move to 
Indian Territory, where the game was plentiful and the water pure. It 
would be a place where the Cherokees would never be disturbed again or 
have state or federal governments thrust over them. Of course, the 
Cherokees asked the most obvious question: If Indian Territory was so 
nice, why didn't white people move there and leave the Cherokees in 
their ancestral homeland, as guaranteed by the United States in 23 
treaties? In fact, David Crockett, Congressman from Tennessee proposed 
to move Tennesseans to Indian Territory and advise Georgians to move 
into Tennessee.
    Why is this bill recognizing the Cherokee Nation Trail of Tears 
important? There are three reasons. The United States government must 
not repeat the mistakes it made in the past, it must honor its word, 
and forever remember the inspiring story of Cherokee spirit. At stake 
is the integrity of the United States and its word. Supreme Court 
Justice Hugo Black once said, ``Great nations, like great men, should 
keep their word.'' The value of this Trail of Tears designation is that 
it will remind us of our obligations and duties and of our potentials 
and opportunities in the covenant of those treaties.
    The Trail of Tears reminds us of our first history lesson: The 
greed of individuals and the power of our United States government 
should never be used as instruments to defraud and rob a people of 
their homeland and government.
    Our second history lesson is that legal treaties of the past are 
still binding, both on the United States and the Cherokee Nation, even 
though often they are not honored or acknowledged and sometimes are 
even viewed as primitive agreements even though they are the supreme 
law of the land. In spite of such willful misinterpretations, these 
treaties are equally as sacred to Indian nations as our U.S. 
Constitution is to all of us.
    Our third history lesson is that, in contrast to the horrific 
episode that is the Trail of Tears, the Cherokee Nation and its people 
have continuously demonstrated our great legacy: We are a people who 
face adversity, survive, adapt, prosper and excel. We continued our 
legacy in Indian Territory by building a sophisticated government and 
society through institutions of higher education, obedience to the law 
and cohesive cultural communities.
    These lessons should never be forgotten, lest the mistakes of the 
past be repeated.
    At stake here is the integrity of the United States and its word. 
Supreme Court Justice Hugo Black once said, ``Great nations, like great 
men, should keep their word.''
    The value of this Trail of Tears designation is that it will remind 
us of our obligations and duties and of our potentials and 
opportunities in the covenant of those treaties.
    Since the Trail of Tears, we have faced and are facing a number of 
other challenges to the Cherokee Nation. I can tell you, with the 
spirit of our ancestors and the conviction of our people, our 
government, and our history, we will be here for centuries to come to 
pass on this legacy.
    I am extremely fortunate to be here today and to advocate on behalf 
of Representative Zach Wamp (R-TN), Marion Berry (D-AR) and 17 
cosigners, including the Oklahoma delegation, on H.R. 3085 (``Trail of 
Tears Documentation Act'') and Senator Thomas Coburn (R-OK) Bill S. 
1970, to memorialize and to protect the physical remnants of the Trail 
of Tears.

    Senator Thomas. Thank you very much, Chief. Would you care 
to go over those signatures with us?
    [Laughter.]
    Mr. Smith. I would love to, sir. We can have the election 
commission verify them.
    Senator Thomas. That is very interesting. Thank you so much 
for being here.
    Let me go back then to Mr. Parsons and a couple of the 
areas we discussed. On the proposal for the Eisenhower 
Memorial, where is that now in relation to the Mall and so on?
    Mr. Parsons. You mean the location?
    Senator Thomas. Yes, the location.
    Mr. Parsons. The location that we are currently dealing 
with? The location has not yet been approved because we need 
the legislation we are talking about here today.
    Senator Thomas. Where is the proposal?
    Mr. Parsons. The Eisenhower Commission looked at a dozen 
sites, and we focused on one that is on Maryland Avenue at the 
intersection with Constitution. It is directly across the 
street from the Air and Space Museum and is one of the sites 
that is identified in the monuments and memorials master plan 
that I believe you are familiar with; a series of traffic 
islands, not a very attractive location. We have all looked 
forward for a long time to creating a sense of place here.
    Senator Thomas. That is a traffic island now, with streets 
on three sides of it; is that it?
    Mr. Parsons. Yes. It also is complicated by multiple 
jurisdictions. We have a piece, the District of Columbia has a 
piece, and GSA has a piece, but we are working with all three 
agencies to try to bring them together and get it under one 
jurisdiction, hopefully the National Park Service.
    Senator Thomas. So this is what, in Area I?
    Mr. Parsons. It is just on the edge of Area I. Actually, 
half of it is in Area II.
    Senator Thomas. I see.
    Mr. Parsons. It is simply the northern piece that is in 
Area I.
    Senator Thomas. Now, what is the long part of the Mall? 
That is reserved area?
    Mr. Parsons. Yes. This map, I think you are familiar with. 
It is the one in the Commemorative Works Act that you 
sponsored.
    Senator Thomas. Yes. This is not in that area?
    Mr. Parsons. Not at all, no.
    Senator Thomas. I see.
    This is always kind of confusing. Who actually has 
jurisdiction over what is on the Mall?
    Mr. Parsons. We manage 90 percent of the acreage of the 
Mall, the National Park Service. The District of Columbia 
manages streets going through it North-South--Third, Fourth, 
Seventh, and Fourteenth Streets. And the Smithsonian of course 
has the museums along the way. But the bulk of it is under the 
jurisdiction of the Park Service.
    Senator Thomas. So future development, particularly on the 
reserve area, would be up to the authority of the Park Service?
    Mr. Parsons. Correct.
    Senator Thomas. It seems like it always takes the Park 
Service, the city of Washington, the Smithsonian and everybody 
to get involved in these decisions. I'm a little concerned that 
we are going to be able--in fact, I think I am going to 
recommend that we have a study again as to how we preserve that 
Mall. There are always ideas about having some more buildings 
on there and now here are two relatively new ones; right?
    Mr. Parsons. Yes. Well, I would not characterize the 
Eisenhower Memorial as being on the Mall. It is across the 
street, as it were. Not the Mall that you and I are so 
concerned about protecting through the reserve. But you are 
absolutely right about the African American Cultural Museum, 
Congress exempted the reserve and indeed the Smithsonian picked 
it.
    If you recall the hearings that we had last summer 
regarding this very subject with the Planning Commission, the 
Commission of Fine Arts, and the Coalition to Save Our Mall, we 
outlined at that time what we intend to do now that we have the 
reserve in place, and that is to do a two-fold planning 
process. One is the Park Service is going to do a comprehensive 
management plan for the Mall, which will deal with it from a 
sustainability standpoint, not a development plan, not where we 
are going to build more things, but how are we going to protect 
what we have. At the same time, the National Capital Planning 
Commission is going to do a framework plan surrounding the 
Mall. That is all of the real estate in Area I. The reason they 
are doing that is it is beyond our jurisdiction. So these two 
companion planning processes will be going on at the same time 
and we feel that will give you what you have in mind.
    I think the main difference between 1901 and today is that 
the L'Enfant Plan was being ignored. There was chaos on the 
Mall, a train station in the middle of it. At the same time, 
the Corps of Engineers was filling all of East and West Potomac 
Park and there was no plan for that. Senator MacMillan decided 
that there should be somebody that did this, so they created 
the plan that we are all familiar with.
    One of the important recommendations of that plan was to 
create Federal agencies to steward this, and they created--the 
Congress in turn created this Commission of Fine Arts and the 
National Capital Planning Commission. So here we have two 
Federal agencies, including ourselves, that are charged with 
protecting this. I think that I would like to talk more about 
this, not today obviously, but that that is the appropriate 
mechanism to get a good plan for this area.
    Senator Thomas. Good. Well, I feel very strongly about it, 
as most people do. But unfortunately, as you know, or 
fortunately, when something comes up that has a lot of merit, 
no one argues with the merit of things. Well, then someone 
wants it on the Mall. The next thing you know, you have got a 
hassle going on again.
    So I think if our plan is current and clear, why, that 
would help a good deal. So that's good, I am glad you are 
working on that.
    Mr. Parsons. All right. I look forward to more discussion 
about this.
    Senator Thomas. This visitor center at the Buell Memorial, 
is that going to be an additional responsibility of the Park 
Service?
    Mr. Parsons. We have an existing visitor center. It is off 
the beaten path. What we will be doing is relocating our 
personnel there. So from an operational standpoint, it is a 
wash. There will be lease payments of about $70,000 a year 
maximum that would be an additional cost, but we are 
rearranging the priorities in the park so that we will not be 
seeking an operational increase.
    Senator Thomas. I see.
    Mr. Parsons. There is also a cost of $1.2 million to 
prepare exhibits, desks, the kind of thing you need in a normal 
visitor center. That is a one-time cost. With this authority, 
we would be seeking appropriations over the next 5 years to do 
that.
    Senator Thomas. Really? What a surprise. No, I understand.
    This farm thing in St. Croix, would that be part of an 
existing park or would that be a new designation, if that 
should happen?
    Mr. Parsons. As we understand the measure, it is being 
studied as a stand-alone. It is not a boundary expansion, if 
you will. It is a stand-alone unit that is across the island 
from our current facilities.
    Senator Thomas. I see.
    What is the status of this, what do you call it, the 
existing plan for a memorial on----
    Mr. Parsons. Victims of Communism?
    Senator Thomas. Victims of Communism.
    Mr. Parsons. They hope to start--it is all approved, that 
is through the various approval processes here in Washington. 
They hope to start construction this spring and be completed by 
November.
    Senator Thomas. Oh, really. I see.
    What have you heard--is this going to fulfill the hopes of 
some of the people who have recommended this additional one, or 
do you know?
    Mr. Parsons. No, I think they feel pretty strongly that the 
Victims of Communism Memorial will not represent what they are 
trying to tell.
    Senator Thomas. I see.
    Chief Smith, now, is this an expansion, is this a study, or 
is there authorization for an addition to the study, or how do 
you define that?
    Mr. Smith. If I could, I will just defer to the Park 
Service. As I understand, it is a study for the designation of 
additional routes of the Trail of Tears. Basically there were 
four routes. The primary one has been designated and the study 
is to expand the other three routes.
    Senator Thomas. Someone suggested, however, in addition to 
the study, that it also designates some routes before the 
study; is that correct?
    Mr. Parsons. Yes, the study--the way the measure is 
structured now, we are suggesting it be changed. Rather than 
us--what it says is we will study it; if we think it is worth 
designating, it would automatically be designated. Highly 
unusual. We usually return to the Congress with such a study 
saying what we think should be designated, how much it would 
cost, and those kinds of things. So that is the amendment we 
are seeking.
    Senator Thomas. Oh, I see. So the bill does not authorize 
it. It just says if the study recommends it, it can 
automatically be done.
    Mr. Parsons. Yes.
    Senator Thomas. You are suggesting, if the study recommends 
it, it then has to go through the regular process?
    Mr. Parsons. Correct.
    Senator Thomas. Is that a problem for you, Chief?
    Mr. Smith. No.
    Senator Thomas. Okay, good.
    Well, gentlemen, we are trying to see if we can do things 
fairly quickly today.
    Mr. Parsons. I think you broke a record today.
    Senator Thomas. Is that a record?
    Mr. Parsons. It must be.
    Senator Thomas. Well, we appreciate very much your being 
here. I think you have covered all the issues here pretty well 
and we will try to move them on. I do not have any further 
questions. If you would both be willing, we will have some time 
for other members that were not able to be here, if they have 
questions to submit to you within the next couple of days.
    Mr. Parsons. Certainly.
    Senator Thomas. Otherwise, thank you very much.
    Mr. Parsons. Thank you.
    Senator Thomas. The committee is adjourned.
    [Whereupon, at 1:57 p.m., the hearing was adjourned.]


                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

                                               U.S. Senate,
                                 Washington, DC, February 13, 2006.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: As Commissioners of the Dwight D. Eisenhower 
Memorial Commission, we respectfully request that S.J. Res 28, a 
resolution approving an Area I location for the Dwight D. Eisenhower 
Memorial, be placed on the hearing agenda for February 16, 2006. This 
resolution, introduced on February 7, 2006, was referred to the Senate 
Committee on Energy and Resources.
    S.J. Res 28 approves the Secretary of the Interior's recommendation 
that the Eisenhower memorial be located within the boundaries of Area 
1, as defined by the Commemorative Works Act (40 U.S.C.  8901-8908). 
This area is reserved for commemorative works whose subjects are of 
``pre-eminent historical and lasting significance to the Nation.'' It 
is outside the National Mall, but close to the central core of the 
city.
    Dwight D. Eisenhower served as the 34th President of the United 
States. President Eisenhower helped lead the victorious resolution of 
World War II, and was one of the most dedicated public servants in 
American history. His commitment to democratic processes and 
international peace stand as his lasting legacy to the Nation. 
President Eisenhower deserves a memorial location that speaks to his 
life and legacy.
    Accordingly, we respectfully request that S.J. Res. 28 be placed on 
the February 16, 2006 hearing agenda, and favorably reported as soon as 
possible, in order to ensure that the memorialization be on schedule.
    Thank you for your consideration of our request.
            Sincerely,
                                   Ted Stevens,
                                           U.S. Senator From Alaska.
                                   Daniel K. Inouye,
                                           U.S. Senator From Hawaii.
                                   Pat Roberts,
                                           U.S. Senator From Kansas.
                                   Jack Reed,
                                           U.S. Senator From Rhode 
                                               Island.
                                   Sam Brownback,
                                           U.S. Senator From Kansas.
                                 ______
                                 
        Statement of Hon. Sander M. Levin, U.S. Representative 
                       From Michigan, on H.R. 562

    Chairman Thomas, Ranking Member Akaka and Members of the 
Subcommittee, thank you for the opportunity to testify on behalf of 
H.R. 562. H.R. 562 would allow the Government of Ukraine to donate a 
memorial in the District of Columbia honoring the victims of the 
manmade famine that killed millions of Ukrainians in 1932-33. This is 
important legislation to the 1.5 million Ukrainian-Americans throughout 
the United States, to the people of Ukraine who have embarked on a 
courageous effort to build a free, democratic, open society, and indeed 
to all of us who value freedom.
    The famine of 1932-33 resulted from criminal acts and deliberate, 
criminal decisions by political officials, not from the forces of 
nature. Yet it is also one of the least known of human tragedies. 
Despite efforts by the Soviet government at the time and afterward to 
hide the planned and systematic nature of this famine-genocide, the 
Ukrainian Diaspora has struggled to preserve its memory.
    By introducing unrealistically high quotas on grain and other 
agricultural products, which were strictly enforced by Red Army troops, 
the Soviet government deliberately starved 7 to 10 million Ukrainians. 
The harvest of 1932 was only 12% below 1926-1930 average, but millions 
of Ukrainians died a slow, agonizing death of hunger.
    In his book ``The Harvest of Sorrow'', British historian Robert 
Conquest provided a vivid picture of the devastating effects of the 
Famine-Genocide in Ukriane: ``A quarter of the rural population, men, 
women, and children, lay dead or dying, the rest in various stages of 
debilitation with no strength to bury their families or neighbors.''
    This effort was systematic and premeditated. Having sealed the 
borders of Ukraine to prevent any outward migration or outside relief 
efforts, the Soviet Union proceeded to confiscate grain and summarily 
execute anyone found taking even a handful of grain that was considered 
``social property.'' The result was devastating, and exactly what the 
Soviet government intended. Materials now being found in KGB archives 
have shown the pre-meditated, political nature of the famine.
    Nearly a quarter of the Ukrainian rural population paid for their 
love of freedom with their lives.
    The United States and its people must persist in standing with 
those living under oppressive and tyrannical regimes as they struggle 
for their freedom. Part of this struggle is to remember the brutal acts 
of these regimes and their victims. Preventing the recurrence of crimes 
against humanity such as the Ukrainian Famine-Genocide begins with 
remembering the tragedies of the past.
    That is why I believe it is so important for there to be a monument 
remembering the millions of innocent victims of this Famine-Genocide. 
This memorial will not only honor the victims of this horrible period 
of history, but also serve as a reminder to all of us that we must work 
together to prevent such tragedies in the future. This reminder is 
particularly poignant given the renewed commitment of Ukraine to 
freedom and democracy as demonstrated during last year's Orange 
Revolution.
    Some hold the view that a memorial to the victims of the Ukrainian 
Famine-Genocide would detract from the planned Victims of Communism 
Memorial, and potentially lead to a competition among other groups for 
separate memorials. My understanding is that this planned monument will 
not make reference to individual countries and events. Specifically 
remembering the grievous events of the Famine-Genocide makes the 
brutality of Communism even more clear. Far from detracting from the 
message of the Victims of Communism Memorial, this would reinforce it.
    The large Ukrainian-American Community, in cooperation with the 
people of Ukraine, has been working publicly toward a memorial with the 
involvement of other concerned citizens for many years now. This effort 
to commemorate a tragic, massive loss of 7 to 10 million lives has not 
led to a plethora of requests from other countries or groups for a 
memorial as a gift to the United States.
    This bill specifies that no costs would be incurred by the U.S. 
government. I also want to make clear that there is no expectation that 
this Memorial would be placed on the National Mall.
    This tragedy is more than worthy of, it is crucial to, our 
remembrance. The House of Representatives approved this legislation by 
voice vote on November 16th, 2005, and I believe it would enjoy 
similarly broad support in the full Senate. I thank you again for this 
hearing and urge the members of the subcommittee to support H.R. 562.
                                 ______
                                 
           Statement of Hon. Zach Wamp, U.S. Representative 
                       From Tennessee, on S. 1970

    Thank you Chairman Thomas, Senator Akaka and ladies and gentlemen 
of the committee, I appreciate being given the opportunity to express 
my support for S. 1970, sponsored by Senator Coburn and cosponsored by 
Senators Frist and Alexander.
    S. 1970 is the companion bill to H.R. 3085 introduced by me and 
cosponsored by 20 of my House colleagues. The intent of both of these 
bills is to study an expansion of the current Trail of Tears National 
Historic Trail to include additional documented components into the 
National Trails System Act. The proposed additions have been well 
documented by National Park Service historians, military journals and 
newspaper accounts. When the original Trail was designated only 
primitive research existed, leaving two main arteries-Ross and Bell 
missing, as well as many water routes and emigration depots.
    The designation and interpretation of the sites and trails 
associated with the Cherokee Removal will enhance public understanding 
of American history. Our greatness as a nation is our ability to look 
at our own history objectively and in proper perspective, being mindful 
of the errors of the past in order not to repeat them. Through this 
legislation we will honor the historic footsteps taken by the Cherokee 
and celebrate our future as we remember the past.
    Because of historical significance, S. 1970 and H.R. 3085, enjoy 
broad support not only within Congress, but also with the Cherokee 
Nation, Eastern Band of Cherokee and associated trail organizations 
such as the Trail of Tears Association. The legislation is a wonderful 
example of how Congress can better understand a national event through 
commemoration of the Cherokee's story. I believe the Secretary of 
Interior will find that the additional routes meet the historical 
significance, suitability and feasibility required by the National Park 
Service for designation as part of the Trail of Tears National Historic 
Trail. I thank you for today's hearing and I look forward to working 
further with Senator Coburn and the Committee.
                                 ______
                                 
Statement of Hon. Donna M. Christensen, Delegate, U.S. Virgin Islands, 
                              on H.R. 318

    Thank you, Chairman Thomas and Ranking Member Akaka, for scheduling 
a hearing on my bill, H.R. 318 to provide for a study to determine the 
feasibility and suitability of designating Castle Nugent Farms in the 
U.S. Virgin Islands as a unit of the National Park System.
    Castle Nugent Farms is a unique 1350-acre property located on the 
southeastern shore of my home island of St. Croix. It contains natural 
and cultural resources, which could provide an unparalleled insight 
into the plantation period of the Virgin Islands.
    I was asked to introduce H.R. 318 by the owners of Castle Nugent 
Farms, which is presently operated as a cattle ranch, because they are 
very interested in preserving and interpreting the natural and cultural 
resources of the area. Caroline Gasperi, whose family members have been 
the stewards of this land for more than 50 years, has been an 
enthusiastic supporter for the preservation of the site.
    This hearing on this bill today brings her one step closer to her 
long held and hard fought for dream.
    The owners are justifiably proud of their ranch, which contains 
more than four miles of pristine oceanfront with a large and healthy 
fringing coral reef. The interior of the property consists of Caribbean 
dry forest and pasture lands with cultural resources from both pre-
Columbian and post-European settlement.
    A large Danish estate house, dating to the 1730's, sits on the 
property. That house is listed on the National Register of Historic 
Places.
    At various points in its history Castle Nugent Farm has been 
operated as a cotton plantation and a sugar cane plantation. Its 
current use as a cattle ranch involves raising unique Senepol cattle, a 
breed which is well suited to the climate and vegetation of the area.
    H.R. 318 is a non-controversial bill. Identical legislation passed 
the House in the last Congress. The National Park Service has no 
objections to the legislation and the property's owners not only 
support a park study of the site but also are enthusiastic about the 
opportunity to preserve the natural and cultural resources of the farm.
    Mr. Chairman, it is my hope that the park study will provide the 
blueprint by which we can preserve and interpret this unique piece of 
island history and resources for the benefit of present and future 
generations. I strongly support adoption of H.R. 318 by your committee 
and the full U.S. Senate.
    Thank you again for holding a hearing on H.R. 318. I look forward 
to working with you to secure its passage in the Senate.
                                 ______
                                 
                               Dwight D. Eisenhower
                                       Memorial Commission,
                                 Washington, DC, February 14, 2006.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman and Members of the Committee: On behalf of the 
Eisenhower Memorial Commission I would like to thank you for holding 
this hearing and for the opportunity to convey our support for S.J. 
Res. 28, a resolution approving location of the Eisenhower Memorial in 
Area I, as defined by the Commemorative Works Act.
    The Eisenhower Memorial Commission was created by Public Law 106-79 
and was fully appointed in 2001. The Commission consists of four 
Representatives, four Senators, and four public members and is 
completely bipartisan. I am the Commission's Chairman, and Senator 
Daniel Inouye is the Vice Chairman. The other Senators are Senator Ted 
Stevens, Senator Pat Roberts, and Senator Jack Reed. According to the 
law, the Commission is charged with creating an ``appropriate permanent 
memorial to Dwight David Eisenhower'' to perpetuate his ``memory and 
his contributions to the United States.'' S.J. Res. 28 is an important 
part of the process that we hope will fulfill the mandate of the law.
    As you know, only memorials whose subjects are of ``pre-eminent 
historical and lasting significance to the Nation'' may be located in 
Area I. The Secretary of the Interior, with the consultation of the 
National Capital Memorial Advisory Commission, has deemed that the 
Dwight Eisenhower Memorial meets these criteria and has recommended 
that Congress approve her determination.
    The Eisenhower Memorial Commission supports the Secretary's 
determination and believes that an appropriate memorial to Dwight 
Eisenhower must have a prominent location. The remarkable life and 
legacy of Dwight D. Eisenhower is only partly known to the American 
public. He is recognized as an exceptional General, but sometimes 
regarded as only an average President. Only now are his extraordinary 
accomplishments as President--in maintaining peace, fostering 
democracy, and modernizing America--being understood and recognized.
    I served in the European Theatre in World War II and later worked 
as a special assistant to President Eisenhower in the White House. It 
is evident to me and many of my generation that Eisenhower was a pre-
eminent figure in the Allied victory in World War II, as Supreme 
Commander Allied Forces Europe, and in the successful and peaceful 
years of his presidency. It is my hope that this memorial will show 
future generations not only this historical import, but also his legacy 
of public service, deep commitment to the freedom of our country, and 
love of the Constitution and democratic processes that together 
comprise his lasting significance to the Nation.
    It is a great privilege on my part to be able at this point in my 
life to spend time pursuing the goals of building this memorial. The 
attached document is a brief summary of Dwight Eisenhower's legacy and 
specific contributions to the United States of America.
            Sincerely,
                                        Rocco C. Siciliano,
                                                          Chairman.
[Enclosure.]
                Dwight D. Eisenhower Memorial Commission

          THE NATIONAL MEMORIALIZATION OF DWIGHT D. EISENHOWER

    Dwight D. Eisenhower (October 14, 1890-March 28, 1969) served as 
the 34th President of the United States and ranks as one of the 
preeminent figures in the global history of the twentieth century. 
Eisenhower was a central leader in the victorious resolution of World 
War II but his lasting significance in history lies in his deep 
commitment to freedom, the Constitution, democracy, economic progress 
and international peace.
    An officer in World War I, Eisenhower's unusual abilities led to 
accelerated promotions at the outset of World War II and his selection 
in December 1943 as Supreme Commander of the Allied Expeditionary 
Forces. General George C. Marshall endorsed him for this position and 
President Franklin D. Roosevelt appointed him. He commanded the largest 
and most complex amphibious assault in world history on D-Day, June 6, 
1944. He tirelessly worked to achieve cooperation among the allied 
nations and commanders and became one of the most beloved military 
leaders in American history and most respected international figures of 
that time.
    Toward the end of World War II, Eisenhower was nominated by 
President Roosevelt and approved by Congress for the rank of five-star 
General. Upon retiring from military service, he served as President of 
Columbia University from October 1948 to January 1951. While in that 
position, President Truman regularly sought his advice and counsel and 
then recalled him to active duty, appointing him in December 1950 as 
the first commander of the North Atlantic Treaty Organization's (NATO) 
military forces in Europe.
    Eisenhower's many contributions to our nation's security included 
his oversight of the peacetime demobilization of American military 
forces, his guidance in creating the armed forces needed to resist 
Communist aggression, and his many efforts to promote the unification 
of the armed forces.
    As Eisenhower's two-term presidency began, American democratic 
values and national security were threatened by powerful adversaries in 
Europe and Asia. Passionately devoted to national security through 
alliances with other nations, President Eisenhower insisted on 
acquiring the modem military forces needed to contain the Soviet Union 
and other Communist nations without weakening America's capitalist 
economy and trading partners. Through crises and controversies, he kept 
the nation focused on the long-term strategy that would, he was 
certain, eventually win the Cold War. He understood the political 
economy of warfare better than most of his contemporaries and realized 
that excessive military expenditures could undermine the nation and its 
allies. Knowing that nuclear war was un-winnable and a threat to 
civilization, President Eisenhower promoted the peaceful uses of atomic 
energy, while skillfully and willingly deploying the most advanced 
electronic and photographic technologies to ensure American security. 
Simultaneously, he sustained strategic nuclear deterrence. President 
Eisenhower inaugurated the national security policies that guided the 
nation for the next three decades, leading to the peaceful end of the 
Cold War in 1989.
    While advancing these strategic Cold War measures, President 
Eisenhower assiduously pursued balanced budgets, fiscal responsibility, 
and those public works that were essential to the nation and its 
citizens. He introduced lasting innovations to the institution of the 
presidency, creating the first White House chief of staff, the first 
congressional relations office, the first presidential assistant for 
national security affairs and the first presidential science advisor. 
He dramatically improved the transportation infrastructure of the 
country with construction of the interstate highway system and the St. 
Lawrence Seaway. During his presidency, the United States added two 
stars to its flag, symbolizing the addition of the important new states 
of Alaska (January 3, 1959) and Hawaii (August 21, 1959).
    To address the increasing complexity of the social needs of the 
American people, President Eisenhower created the Department of Health, 
Education and Welfare in 1953, improved Social Security by increasing 
benefits and placing an additional ten million Americans in the Social 
Security system, and dispensed free polio vaccines. In 1957, he led 
Congress to enact the first civil rights legislation since 
Reconstruction.
    Like Washington, Eisenhower became president and commander in chief 
after leading his countrymen and their allies to military victory and 
then served through perilous times. Eisenhower's extraordinary 
accomplishments as president and military leader can be followed 
through the public record and a series of memorable addresses and 
speeches including--the Guildhall Address (London, 1945), Chance for 
Peace (Washington, 1953), Atoms for Peace (United Nations, 1953), Open 
Skies (Geneva Summit, 1955) and his Farewell Address (1961). His 
preeminent historical and national significance is assured. The 
challenge in our memorialization of Dwight D. Eisenhower will be to 
honor in a distinct, unique and enduring manner all of the facets of 
his extraordinary career of service to this nation.
                                 ______
                                 
  Statement of Jack D. Baker, President, Trail of Tears Association, 
                     Oklahoma City, OK, on S. 1970

    My name is Jack D. Baker and I am a citizen of both the United 
States and the Cherokee Nation. I am president of the National Trail of 
Tears Association. I am also an eighth generation Oklahoman due to the 
Trail of Tears.
    Congress designated the Trail of Tears National Historic Trail as 
such in 1987. This trail commemorates the tragic removal of the 
Cherokee people and encompasses two of the routes followed during the 
removal--one follows the principal land route and the other the water 
route. While this trail is specific to the Cherokee it represents the 
removal policy of the U.S. Government as it relates to several 
Southeastern tribes. The Trail of Tears Association was formed in 1993 
as a support organization to the National Park Service to further 
research both the events leading up to removal and the removal routes, 
to identify significant sites along the trail, and to help preserve and 
protect these sites. It quickly became evident that the Trail as 
designated was inadequate to portray the various events of the forced 
removal.
    At the time of our forced removal, the Cherokee owned farms and 
even large plantations much the same as their white neighbors. A 
constitution was adopted in 1827 patterned after that of the United 
States. With Sequoyah's invention of his syllabary a few years before 
virtually every family had at least one literate member. (This compared 
with a 10% literacy rate in the states surrounding the Cherokee 
Nation.) With the publication beginning in 1828 of their newspaper, the 
Cherokee Phoenix, the Cherokees became well informed on the issues of 
removal. By 1819 my people had ceded 90% of their original lands. They 
only had about 8 million acres left of their original 80 million. These 
remaining lands they sought to keep while their white neighbors being 
desirous of the Cherokee's farms sought to have them removed. The U.S. 
Supreme Court in its 1832 decision in the case of Worcester v. Georgia 
recognized the sovereignty of the Cherokee Nation. Yet even this did 
not save them from a fraudulent treaty signed by a handful of Cherokees 
in 1835. The signers had no authority to speak for the Cherokee Nation. 
Yet Congress ratified this Treaty on May 23, 1836 by only a single 
vote. The Cherokees were given two years from that date to remove to 
the West.
    Our Principal Chief and Tribal Council continued in their efforts 
to oppose removal but to no avail. In late May of 1838 General Winfield 
Scott and his troops began to round up my people. The troops with their 
rifles and bayonets drove families from their homes. They were only 
allowed to grab a few items to take with them. Families were frequently 
separated with mothers not knowing where their children were or 
husbands not knowing the whereabouts of their wives or children. In 
this manner the entire Cherokee Nation became homeless and frequently 
destitute in a matter of days. They were first taken to 31 stockades 
constructed throughout the Cherokee Nation. The conditions in these 
stockades were deplorable. The people had no shelter, only a few 
blankets that some of the people were able to grab as they were being 
forced from their homes, and inadequate food. These stockades were 
referred to as concentration camps and this may well be the first time 
that this term was used.
    From these holding stockades the Cherokee were taken to 11 
internment camps. Ten of these were in Tennessee and the remaining one 
was in Alabama. The Trail of Tears National Historic Trail as it is now 
designated begins at these internment camps in Tennessee. It does not 
extend into Georgia where 54% of the Cherokees lived at the time of 
removal or into North Carolina where 22% of the Cherokees lived. These 
two states comprising more than three-fourths of the Cherokee 
population and containing many historic sites relating to removal are 
not included as part of the Trail of Tears National Historic Trail. 
This legislation would correct that oversight and allow for the placing 
of Trail markers along the routes from the stockades to the internment 
camps. It would also include other Trail segments that the Cherokees 
used in their removal and, particularly, the one from the internment 
camp in Alabama to present Oklahoma.
    It is important that the American public remember the Trail of 
Tears. It is an example of what can happen when prejudice combines with 
greed. It warns the American people that a nation founded on the 
principles of equality can fall prey to greed and racism and cautions 
us to be ever vigilant to prevent such an event from happening again.
    It is also important that my people, the Cherokee, remember the 
Trail of Tears where it has been estimated as many as one-fourth of our 
people died. While we faced a great adversity in the forced removal we 
did survive. We were able to adapt to our new lands and prosper in 
them. Survival and adaptability are major attributes of our heritage 
and our young people need to be reminded of this.
    I personally support and the Trail of Tears Association supports 
the legislation expanding the Trail of Tears National Historic Trail. I 
would appreciate your support of Senate Bill 1970.*
---------------------------------------------------------------------------
    *The attached table has been retained in subcommittee records.
---------------------------------------------------------------------------
                                 ______
                                 
                         The Trust for Public Land,
                                         Washington Office,
                                     Washington, DC, March 1, 2006.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: On February 16, 2006, your subcommittee held a 
hearing on H.R. 318, a bill to authorize a study to designate Castle 
Nugent Farms in St. Croix, Virgin Islands, as a unit of the National 
Park System.
    Attached with this letter is testimony to be submitted for the 
record on behalf of The Trust for Public Land in support of this 
important legislation.
    I thank you for holding the hearing and for considering our 
testimony.
            Sincerely,
                                                Alan Front,
                                             Senior Vice President.
[Enclosure.]

                         IN SUPPORT OF H.R. 318

    Mr. Chairman and Members of the Subcommittee, I appreciate the 
opportunity to express support for H.R. 318, a bill to authorize the 
Secretary of the Interior to study the suitability and feasibility of 
designating the Castle Nugent Farms located on St. Croix, Virgin 
Islands, as a unit of the National Park System.
    The Trust for Public Land (TPL) conserves land for people to enjoy 
as parks, gardens, and natural areas, ensuring livable communities for 
generations to come. Since 1972, TPL has helped protect more than 2.1 
million acres of land in 46 states, the District of Columbia, Puerto 
Rico, the Virgin Islands, and Canada.
    Currently TPL is working with the landowner of Castle Nugent Farms 
to explore the different opportunities available in order to conserve 
the Castle Nugent Farms property. Because of the unique historical 
aspects and ecological nature of the property and the benefits to the 
economy of the island of St. Croix, TPL enthusiastically supports this 
legislation. This tract is the largest privately held property in the 
Virgin Islands, and its conservation would be of great benefit to the 
residents of and visitors to St. Croix.
    The 1,350-acre Castle Nugent property is a window into the 
plantation history of St. Croix. The property has a long agricultural 
history dating back to the 1730s, when the Danish estate house, now 
listed on the National Register of Historic Places, was constructed. In 
addition to the pasturelands where prized Senepol cattle graze, 
Caribbean dry forest extends over the rolling terrain up from the ocean 
shoreline. These forests contain cultural resources from pre-Columbian 
and post-European settlement periods.
    Beyond the historical significance of the property, the ecological 
treasures of Castle Nugent Farms are remarkable. A few hundred feet 
offshore of the property's four miles of scenic and pristine coastline 
is one of the healthiest and largest fringing coral reef systems in the 
Virgin Islands. The property is also habitat for sea turtles and many 
migratory and resident birds.
    We are pleased that this legislation passed the House of 
Representatives on November 15, 2005, and we look forward to the 
passage of this bill by the Senate.
    I thank you again, Mr. Chairman, for this opportunity to provide 
testimony in support of a study to determine whether Castle Nugent 
Farms should become a unit of the National Park System.

                                 ______
                                 
      Statement of H.E. Dr. Oleh Shamshur, Ambassador of Ukraine 
                   to the United States, on H.R. 562

    Mr. Chairman, distinguished members of the Subcommittee, first of 
all, let me express my deep gratitude for the attention you are paying 
to the issue of raising a memorial to the victims of the manmade Famine 
in Ukraine in 1932-33.
    In Ukrainian language this tragedy is referred to as ``Holodomor'', 
meaning ``Total Starvation''. Holodomor is an unparalleled disaster in 
the history of my nation, similar to Holocaust in scale, cruelty and 
cynicism of its perpetrators. A crime officially recognized by U.S. 
Congress in 1986 as an act of genocide against Ukrainian people.
    Although Holodomor has taken away from 7 to 11 million innocent 
lives, it remains barely known to the world. Stalin and the Soviet 
regime employed every possible tool in order to make this atrocious 
crime fall into oblivion. And yet, as the Gospel says ``there is 
nothing hidden, except that it should be made known; neither was 
anything made secret, but that it should come to light''. The truth 
about the cold-blooded starving to death of millions of human beings in 
the centre of Europe, in the midst of the 20th century has been 
revealed, although it is yet to receive a due historical tribute. The 
pain and bitter memory of Holodomor are alive in practically every 
Ukrainian family, they make our hearts ache and remind us what a 
monster died when the Soviet empire fell apart 15 years ago.
    There is at least one thing that has been always well known about 
Ukraine: its richness in agricultural resources that earned it the name 
of the ``bread basket of Europe''. In early 1930s Ukraine was still 
largely an agricultural country. It was inhabited by hard working, 
peaceful and diligent people. The state forced them into so-called 
kolhospy, collective farms where they toiled to satisfy the 
agricultural appetites of the Soviet regime. They were natural born 
farmers deprived of earth and instruments of production. Yet, even 
after 15 years of the communist rule they still knew how to grow wheat, 
breed cattle, plow their fertile land. Respect to private property and 
independent spirit were in their blood. This was their crime in the 
eyes of the tyrant who ruled the country. This was the reason why 
Ukraine and its people were considered dangerous by Stalin and his 
henchmen.
    I shall be honored to provide you with some background information 
to explain what a horrible tragedy occurred in my country 73 years ago 
and why it deserves to be commemorated in the capital of the U.S. In my 
testimony I will rely upon the book ``Harvest of Sorrow'' by British 
historian Robert Conquest, works of the British researcher James E. 
Mace, Canadian scholar Roman Serbyn and British journalist Askold 
Krushelnycky.
    The disaster started in 1932 when the Soviet authorities increased 
the grain procurement quota for Ukraine by 44%. They were aware that 
this extraordinarily high quota would cause grain shortage, resulting 
in the inability of the Ukrainian peasants to feed themselves. Soviet 
law was quite explicit: no grain could be given to feed the peasants 
until the state quota was met. Communist party officials with the aid 
of military troops and NKVD secret police units were used to move 
against peasants who may be hiding grain from the Soviet government. An 
internal passport system restricted movement of Ukrainian peasants so 
that they could not travel in search of food. Ukrainian grain was 
collected and stored in grain elevators that were guarded by military 
units & NKVD while Ukrainians were starving in the vicinity.
    After it turned out in 1932 that Ukraine couldn't fulfill the quota 
set by Moscow, draconian measures were taken. On the highest level, the 
grown wheat was declared inviolate ``socialist property'' and anyone 
who gleaned even an ear of wheat or bit off a sugar beet was declared 
an ``enemy of people'' and could be executed or sentenced to not less 
than 10 years in Gulag.
    In Ukraine, the decree of December 6, 1932 singled out six villages 
that allegedly sabotaged the grain procurement campaign. They were 
placed on the ``blacklist'', which was soon extended in a wholesale 
fashion. The blacklist meant a complete economic blockade of the 
villages listed, including an immediate closing of stores with all the 
food therein; a complete ban on trade in the village, including trade 
in most essential goods; immediate halting and calling in of all 
credits and advances; combing neighborhood for so-called ``foreign 
agents'' and ``saboteurs''. At that time it was equivalent to a 
sentence of death by starvation.
    Only those who survived famine can describe adequately what it was 
like. They tell of the entire village population swelling up from 
starvation. They tell of the ``dead wagons'' day after day picking up 
dead bodies to dump them later in pits. They tell of whole villages 
becoming deserted, of homeless children roaming the country in search 
for food and of railroad stations flooded with starving peasants who 
had to beg lying down for they were too weak to stand. Many tried to 
cross the border to the Russian Federation where bread was available. 
But the secret police established border checkpoints to prevent anyone 
from carrying food from Russia to Ukraine. This meant de facto 
blacklisting of entire Ukraine.
    Graphic portraits of the horrors of village life during Holodomor 
emerge from testimonies of eyewitnesses gathered by British journalist 
Askold Krushelnycky.
    Oleksa Sonipul was 10 in 1933 and lived in a village in northern 
Ukraine. She said by the beginning of that year, famine was so 
widespread people had been reduced to eating grass, tree bark, roots, 
berries, frogs, birds, and even earthworms. Desperate hunger drove 
people to sell off all of their possessions for any food they could 
find. At night, an eerie silence fell over the village, where all the 
livestock and chickens had long since been killed for food and 
exhausted villagers went to bed early. But requisition brigades looking 
to fulfill the impossibly high grain quotas continued to search even 
those villages where inhabitants were already dying from starvation. 
Brigade members, fueled by Soviet hate campaigns against the peasants, 
acted without mercy, taking away the last crumbs of food from starving 
families knowing they were condemning even small children to death. Any 
peasant who resisted was shot. Rape and robbery also took place.
    Sonipul described what happened when a brigade arrived at her home.

          ``In 1933, just before Christmas, brigades came to our 
        village to search for bread. They took everything they could 
        find to eat. That day they found potatoes that we had planted 
        in our grandfather's garden, and because of that they took 
        everything from grandfather and all the seeds that grandmother 
        had gathered for sowing the following autumn. And the next day, 
        the first day of Christmas, they came to us, tore out our 
        windows and doors and took everything to the collective farm.''

    As villages ran out of food, thousands of desperate people trekked 
to beg for food in towns and cities. Food was available in cities, 
although strictly controlled through ration coupons. But residents were 
forbidden to help the starving peasants and doctors were not allowed to 
aid the skeletal villagers, who were left to die in the streets.
    Fedir Burtianski was a young man in 1933 when he set out by train 
to Ukraine's Donbas mining area in search of work. He says thousands of 
starving peasants, painfully thin with swollen bellies, lined the rail 
track begging for food. The train stopped in the city of Dnipropetrovsk 
and Burtianski says he was horrified by what he saw there.

          ``At Dnipropetrovsk we got out of the carriages. I got off 
        the wagon and I saw lots of people swollen and half-dead. And 
        some who were lying on the ground in convulsions. Probably they 
        were going to die within a few minutes. Then the railway NKVD 
        quickly herded us back into the wagons.''

    Grain and potatoes continued to be harvested in Ukraine, driven by 
the demand of Stalin's quotas. But the inefficiency of the Soviet 
transportation system meant that tons of food literally rotted uneaten 
sometimes in the open and within the view of those dying of starvation.
    The scene Burtianski described was repeated in towns and cities all 
over Ukraine. In the countryside, entire villages were being wiped out. 
The hunger drove many people to desperation and madness. Many instances 
of cannibalism were recorded, with people living off the remains of 
other starvation victims or in some instances resorting to murder. Most 
peasant families had five or six children, and some mothers killed 
their weakest children in order to feed the others.
    Burtianski said at one point, he avoided buying meat from a vendor 
because he suspected it was human flesh. When the authorities heard 
about the incident, he was forced to attend the trial of a man and his 
two sons who were suspected of murdering people for food. Burtianski 
says during the trial one of the sons admitted in chilling terms to 
eating the flesh of his own mother, who had died of starvation.
    He said, ``Thank you to Father Stalin for depriving us of food. Our 
mother died of hunger and we ate her, our own dead mother. And after 
our mother we did not take pity on anyone. We would not have spared 
Stalin himself. ``
    Mykhaylo Naumenko was 11 years old in 1933. His father was executed 
for refusing to join a nearby collective farm. Mykhaylo was left with 
his mother and siblings to face the famine without a provider. He said 
people were shot for trying to steal grain or potatoes from the local 
collective farm, which was surrounded by barbed wire and guarded by 
armed men. He said people were executed even for trying to pick up a 
few loose seeds dropped on the ground.

          ``A tragedy developed. People became swollen, they died by 
        the tens each day. The collective farm authorities appointed 
        six men to collect and bury the dead. From our village of 75 
        homes, by May 24 houses were empty where all the inhabitants 
        had died.''

    Many people met their deaths with quiet resignation, praying and 
comforting their starving children with fairy tales.
    Teodora Soroka, who lost nearly every member of her family to 
``dekulakization'' and famine, says such memories can never be erased. 
Nor does she want to forget them.

          ``My baby sister died of hunger in my arms. She was begging 
        for a piece of bread, because to have apiece of bread in the 
        house meant life. She pleaded for me to give her a bit of 
        bread. I was crying and told her that we didn't have any. She 
        told me that I wanted her to die. Believe me, it's painful even 
        now. I was little myself then. I cried, but my heart was not 
        torn to shreds because 1 couldn't understand why this was all 
        happening. But today, and ever since I became an adult, I 
        haven't spent a day in my life when I haven't cried. I have 
        never gone to sleep without thinking about what happened to my 
        family.''

    Let us think about this little girl. Visualize this Ukrainian 
martyr forced to see her dear ones die one after another from 
starvation. Multiply her suffering by at least 7 million--those are the 
most modest estimates of human losses Ukraine suffered during 
Holodomor.
    Today I am adding my voice to many others who ask you to provide 
Ukrainians with an opportunity to commemorate the immeasurable 
suffering and horrid death of millions of their kin and to condemn this 
act of genocide by erecting a solemn memorial in the heart of America 
which has always been so attentive to pain and injustice inflicted upon 
the others.
    By doing so you will also pay tribute to over one million Ukrainian 
Americans making an outstanding contribution to the prosperity of this 
country. This memorial will be yet another sign of the developing 
partnership between Ukraine and the United States now standing together 
for democracy and against tyranny and oppression.
    Thank you.
                                 ______
                                 
             Statement of Michael Sawkiw, Jr., President, 
                Ukrainian Congress Committee of America

    As a representative organization of the 1.5 million Americans of 
Ukrainian descent, the Ukrainian Congress Committee of America would 
like to thank the National Parks Subcommittee of the Senate Energy and 
Natural Resources Committee for this opportunity to provide written 
testimony regarding H.R. 562, a bill to erect a monument to the victims 
of the Ukrainian Famine-Genocide in Washington, D.C. The subject of the 
Ukrainian Famine-Genocide is of great importance to the Ukrainian 
American community as it is one of the most tragic pages of Ukraine's 
recent history. It acquires even more significance in the next several 
years as communities worldwide will commemorate the 75th Anniversary of 
the Famine-Genocide in 2008. For years, the Ukrainian American 
community has been educating the general public and speaking out about 
one of the most horrific cases of genocide in the 20th century.

         PURPOSE OF THE UKRAINIAN CONGRESS COMMITTEE OF AMERICA

    The Ukrainian Congress Committee of America (UCCA) is a national 
umbrella organization representing the interests of the Ukrainian 
community in the United States. Founded by the First Congress of 
Ukrainians in America in 1940 in Washington, DC, the main purpose of 
the UCCA is to support cultural, educational, and humanitarian 
activities that emphasize the Ukrainian American heritage and to 
effectively coordinate the work of the community. These goals are 
achieved through a nationwide network of over 75 branches, member 
organizations, and a variety of internal UCCA commissions that are 
tasked with specific projects.
    As a not-for-profit, educational and charitable institution, the 
UCCA has a long history of actively pursuing issues that affect the 
Ukrainian American community, particularly in the arena of U.S.-former 
Soviet and now U.S.-Ukraine relations. The hopes and dreams of 
Ukrainians worldwide came to fruition when Ukraine restored its 
independence on August 24, 1991. With the collapse of the Soviet Union, 
the UCCA redirected its efforts toward supporting Ukraine's democratic 
development and economic rebirth while sustaining a vibrant Ukrainian 
community in the United States. In 2004, the UCCA organized the largest 
NGO election monitoring team for Ukraine's presidential elections, with 
over 2,400 international elections observers traveling to Ukraine 
during the Christmas holiday to ensure that Ukraine's re-runoff of the 
presidential elections were held in a free, fair, and transparent 
manner. The results became known as the ``Orange Revolution'' with the 
nation of Ukraine democratically electing their next president, Viktor 
Yushchenko.
    However, the most important task of the UCCA was, and continues to 
be, educating the American public about Ukraine, its history, culture, 
and political development. Pursuant to this mission, the UCCA has 
raised U.S. awareness of Ukraine, as well as represented the interests 
of Ukrainian Americans before the U.S. government by organizing various 
conferences, seminars, commemorations, cultural events and the like. 
The UCCA also strives to educate the American public about the long, 
rich, and sometimes tragic history of the Ukrainian people through 
various publications including The Ukrainian Quarterly, the only 
English language scholarly journal of Ukrainian and international 
affairs. In our efforts to disseminate information, one of the most 
important projects of the UCCA is the on-going educational campaign 
about Ukraine's Famine-Genocide of 1932-1933.

         HISTORY AND INTEGRITY OF THE UKRAINIAN FAMINE-GENOCIDE

    The Ukrainian Famine-Genocide has been called many things--``the 
Forgiven Holocaust'', ``the Forgotten Holocaust'', ``the Unknown 
Holocaust''. These titles spring from the fact that most individuals 
were and continue to be unaware of what happened in Ukraine during 
1932-1933. It is largely because of a successful cover-up effort on the 
part of the Soviet Union, assisted by Western journalists such as 
Pulitzer Prize-winner Walter Duranty, that this tragic event has failed 
to enter into Western consciousness.
                                 ______
                                 
    In an effort to industrialize the Soviet Union as quickly as 
possible and transform Ukraine so that it resembled the Socialist 
paradigm, Stalin began to forcibly collectivize agriculture. As a 
preliminary step, Stalin ordered the liquidation of ``kulaks'' 
(individual peasants), who, according to party doctrine, had 
traditionally exploited rural workers. In reality, however, this title 
came to be applied to anyone considered undesirable by those in the 
party apparatus. Even the richest peasants, at this time, had only two 
or three cows and up to ten hectares of sowing area.\1\ So, in effect, 
the most prosperous peasants were executed, deported, or sent to labor 
camps in Siberia.
---------------------------------------------------------------------------
    \1\ Robert Conquest, Harvest of Sorrow, New York, 1986, p. 75.
---------------------------------------------------------------------------
    After the draconian dekulakization, the remaining peasants were 
bullied into joining collective farms, whose harvests belonged to the 
state. Having been put into this vulnerable position, the remaining 
peasants now bore the brunt of Moscow's assault.
    In 1932, Stalin ordered the grain quota for Ukraine to be raised by 
44%. In August of that year came a decree that ``stealing Socialist 
property'' (taking even a handful of grain from a collective farm) was 
an offense punishable by death.\2\ As it became apparent that the grain 
quota could not be met, party leaders were given the legal right to 
seize whatever grain or food could be found. Robbed of their last 
remaining grain, Ukrainian peasants began to eat anything they could 
get their hands on. It is estimated that upwards of 7 million people 
starved to death in Ukraine proper and in the largely ethnically 
Ukrainian Kuban region.\3\
---------------------------------------------------------------------------
    \2\ Orest Subtelny, Ukraine: A History, Toronto, 1988, p. 414.
    \3\ Taras Kuzio, ``Soviet Crimes Remain Unpunished'', The Kyiv 
Post, 3 October 2002.
---------------------------------------------------------------------------
    Even as the famine situation deteriorated, the Soviet Union 
continued to refute claims that Ukraine was experiencing a famine and 
refused international offers of assistance for the starving peasants. 
The authorities claimed that there was no famine and showed off 
Potemkin villages to visiting dignitaries, such as French premier 
Edouard Herriot.\4\ Despite the many letters sent from Ukraine to 
relatives abroad pleading for any kind of help, the Soviet border 
remained sealed both to relief efforts and to peasants attempting to 
travel to other parts of the USSR in search of food. ``Clear orders 
existed to stop Ukrainian peasants entering Russia where food was 
available . . . and to confiscate any food they were carrying when 
intercepted on their return.'' \5\
---------------------------------------------------------------------------
    \4\ Conquest, p. 314-316
    \5\ Conquest, p. 328.
---------------------------------------------------------------------------
    Why were peasants living in Ukraine subjected to this horrifically 
cruel policy that could only result in their death by starvation? The 
answer lies in the national politics of the Soviet leadership. It is 
well known that Stalin had an acute fear of Ukrainian separatism. As 
Soviet newspaper Proletarska Pravda (Proletarian Truth) stated in 1930, 
``collectivization in Ukraine has a special task . . . to destroy the 
social basis of Ukrainian nationalism.''\6\ If Ukrainian resistance to 
collectivization could be destroyed, Ukrainian national aspirations 
could be similarly done away with. Indeed, being that the majority of 
the Famine-Genocide victims were Ukrainians it seems that the party 
knew only too well whom they were supposed to target.
---------------------------------------------------------------------------
    \6\ Subtelny, 416.
---------------------------------------------------------------------------
    Ukraine suffered tremendously during this time. A few statistics 
will illustrate this:

  <bullet> Ukrainian villages were dying at the rate of 25,000 per day 
        or 1,000 per hour or 17 per minute;
  <bullet> The Soviet regime dumped 1.7 million tons of grain on the 
        Western markets--nearly a quarter of a ton of grain for every 
        Ukrainian who starved to death;
  <bullet> Among the children, one in three perished as a result of 
        rapid collectivization and the forced famine-genocide; and,
  <bullet> The 1933 Famine-Genocide was geographically focused for 
        political ends as it stopped precisely at the Ukrainian-Russian 
        ethnographic border.

    The economic, demographic and cultural results of the Famine-
Genocide are immeasurable. Ukrainian agriculture to this day has yet to 
reclaim its reputation as ``the breadbasket of Europe'' after the 
imposition of the grossly inefficient collective farm system (although 
recently, the farming sector has seen some positive trends). Also, 
together with the Great Terror of the 1930's, the Famine-Genocide 
terrified the population and broke down the trust necessary to maintain 
civil society. People were never allowed to mention the Famine-
Genocide, much less to mourn their dead. Even the word ``Famine-
Genocide'' [Holodomor--sic] was banned.\7\
---------------------------------------------------------------------------
    \7\ Yevhen Sverstiuk, ``Prayer and Memory  . . .  The Church and 
Denying the Famine'', The Day, Kyiv, 3 April, 2001.
---------------------------------------------------------------------------
    Along with the damage done to Ukrainian society and the economy, 
the Famine-Genocide represented the final crackdown on a cultural 
revitalization that had been going on in Ukraine during the 1920's. 
After the purge of the Ukrainian intelligentsia and the destruction of 
the Ukrainian Autocephalous Orthodox Church, the Soviet authorities 
turned their attention to the larger body of Ukrainian peasants where 
the Ukrainian national idea remained strong. Given the background of 
outright destruction of Ukrainian cultural institutions, the Famine-
Genocide can only be considered the culmination of the genocidal 
policies of the USSR towards non-Russian nationalities.

               WORLDWIDE RESPONSE TO THE FAMINE-GENOCIDE

    Due to confluence of circumstances, the world did not make any 
substantial efforts to assist or relieve the Ukrainian nation or 
dispute the genocidal policies of the Soviets. Prominent journalists of 
the time, such as ew York Times correspondent Walter Duranty, aided the 
Soviets in concealing their crimes by proliferating their propaganda in 
the West and slandering those who reported on the Famine-Genocide in 
Ukraine. Mr. Duranty was even awarded the Pulitzer Prize for 
`Excellence in Journalism' for his reports on the Soviet Union and its 
``successful development,'' while in private admitting that up to 10 
million people might have starved.
    One of the heroes who attempted to inform the world of the 
incredible belligerence to which the Ukrainians were subjected is 
Gareth Jones, a Welsh journalist and diplomat, who made it his mission 
to promote the truth about Soviet policies in Ukraine despite great 
harm to his career and personal life. After his first article on 
Ukraine's situation was published, New York Times' Walter Duranty 
published a response denying Jones' analysis. Many others joined 
Duranty in his attacks as evidenced by Eugene Lyons, a Moscow based 
correspondent, who wrote in his 1937 book Assignment in Utopia: 
``Throwing down Jones was as unpleasant a chore as fell to any of us in 
years of juggling facts to please dictatorial regimes--but throw him 
down we did, unanimously and in almost identical formulas of 
equivocation. Poor Gareth Jones must have been the most surprised human 
being alive when the facts he so painstakingly garnered from our mouths 
were snowed under by our denials.''
    Nevertheless, Mr. Jones refuted their allegations and published a 
response in which he recounted his travels and observations:

          . . . I stand by my statement that Soviet Russia [Ukraine--
        sic] is suffering from a severe famine . . . My first evidence 
        was gathered from foreign observers. Since Mr. Duranty 
        introduces consuls into the discussion, a thing I am loath to 
        do, for they are official representatives of their countries 
        and should not be quoted, may I say that I discussed the 
        Russian situation with between twenty and thirty consuls and 
        diplomatic representatives of various nations and that their 
        evidence supported my point of view. But they are not allowed 
        to express their views in the press, and therefore remain 
        silent.
          Journalists, on the other hand, are allowed to write, but the 
        censorship has turned them into masters of euphemism and 
        understatement. Hence they give ``famine'' the polite name of 
        `food shortage'' and ``starving to death'' is softened down to 
        read as ``widespread mortality from diseases due to 
        malnutrition.'' Consuls are not so reticent in private 
        conversation.
          May I in conclusion congratulate the Soviet Foreign Office on 
        its skill in concealing the true situation in the U.S.S.R.? 
        Moscow is not Russia, and the sight of well-fed people there 
        tends to hide the real Russia.

    Unfortunately, Mr. Jones was nearly alone in this overwhelming 
struggle against Soviet propaganda.

       IMPORTANCE OF CONSTRUCTING A MONUMENT IN WASHINGTON, D.C.

    The Ukrainian American community is proud and fortunate to live in 
one of the world's most developed democracies. Because of the freedoms 
guaranteed by the United States, the Ukrainian community has had the 
opportunity to voice our opinions, as well as those of the 50 million 
Ukrainians who were trapped behind the Iron Curtain for over 70 years 
of Soviet oppression.
    In 1988, the U.S. Congress Commission on the Ukraine Famine, having 
conducted an extensive study of this episode in Ukraine's history, 
concluded: ``One or more actions specified in the [United Nations] 
Genocide Convention was taken against the Ukrainians in order to 
destroy a substantial part of the Ukrainian people and thus to 
neutralize them politically in the Soviet Union.'' Furthermore, in its 
``Investigation of the Ukraine Famine of 1932-1933,'' the Commission 
concluded that ``Joseph Stalin and those around him committed genocide 
against Ukrainians in 1932-1933.'' Standing in Washington, D.C., a 
symbol of democracy and liberty, a monument dedicated to the 7-10 
million victims of the 1932-1933 Ukrainian Famine-Genocide will serve 
as a reminder to all who have, or continue to, suffer under oppressive 
regimes. It is crucial that such chapters of world history be 
understood and remembered.
    In the broader context of memorializing the victims of the 
Ukrainian Famine-Genocide of 1932-1933, this monument would enhance the 
scope and message of a true victim of communism. Their ultimate 
sacrifice was as a result of an inhumane ideology--food as a weapon. 
Their sacrifice was unlike any other under communism, which resulted in 
an act of genocide perpetrated against the Ukrainian nation. Though 
other atrocities have afflicted many nations of the world, the sheer 
magnitude and gravity of the Ukrainian Famine-Genocide remains little 
known to the world.
    Without American taxpayer's funds, this monument would serve not 
only as a memorial to those who perished but also as a tool to help 
educate the global community of such heinous crimes. Support for this 
bill has also been expressed in the U.S. House of Representatives, 
which unanimously voted on H.R. 562 in November 2005.
    The United States is a bastion of freedom and democracy. It is our 
task to keep the beacon of hope, freedom, and liberty alive for all to 
admire. In this context, in a statement on the occasion of the 69th 
anniversary of the Ukrainian Famine-Genocide in 2002, President George 
W. Bush wrote: ``Now better than ever, we recognize the Ukrainian 
people's heroic struggle nearly 70 years ago, in which millions died 
because they resisted Stalin's brutal regime. We honor their memory and 
pledge to never forget their suffering. As we remember their struggle, 
we also condemn all authoritarian governments who have terrorized their 
people in the past and continue to do so, thus continuing the fight for 
freedom and safety of all people.''
    The Ukrainian Congress Committee of America requests the support of 
the Natural Parks Subcommittee of the Senate Energy and Resources 
Committee to look favorably upon passage of H.R. 562.


</pre></body></html>
